<html>
<title> - CLIMATE CHANGE ISSUES: AGRICULTURAL SEQUESTRATION OF CARBON DIOXIDE</title>
<body><pre>[Senate Hearing 108-357]
[From the U.S. Government Printing Office]





                                                        S. Hrg. 108-357

  CLIMATE CHANGE ISSUES: AGRICULTURAL SEQUESTRATION OF CARBON DIOXIDE

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON CLEAN AIR, CLIMATE CHANGE, 
                           AND NUCLEAR SAFETY

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 8, 2003

                               __________


                                   ON

 THE POTENTIAL OF AGRICULTURAL SEQUESTRATION TO ADDRESS CLIMATE CHANGE 
         THROUGH AFFECTING ATMOSPHERIC LEVELS OF CARBON DIOXIDE

  Printed for the use of the Committee on Environment and Public Works


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
92-379                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED EIGHTH CONGRESS
                             first session

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            HARRY REID, Nevada
MICHAEL D. CRAPO, Idaho              BOB GRAHAM, Florida
LINCOLN CHAFEE, Rhode Island         JOSEPH I. LIEBERMAN, Connecticut
JOHN CORNYN, Texas                   BARBARA BOXER, California
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
CRAIG THOMAS, Wyoming                THOMAS R. CARPER, Delaware
WAYNE ALLARD, Colorado               HILLARY RODHAM CLINTON, New York
                     Andrew Wheeler, Staff Director
                 Ken Connolly, Minority Staff Director
                                 ------                                

     Subcommittee on Clean Air, Climate Change, and Nuclear Safety

                  GEORGE V. VOINOVICH, Ohio, Chairman
MICHAEL D. CRAPO, Idaho              THOMAS R. CARPER, Delaware
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
JOHN CORNYN, Texas                   HARRY REID, Nevada
CRAIG THOMAS, Wyoming                HILLARY RODHAM CLINTON, New York

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JULY 8, 2003
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    10
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     1

                               WITNESSES

Bast, Joseph, President, The Heartland Institute.................    18
    Prepared statment............................................    43
Knight, Bruce, Chief Executive Officer, Natural Resources 
  Conservation Service, U.S. Department of Agriculture...........     5
    Prepared statement...........................................    35
Lal, Rattan, Director, Carbon Management and Sequestration 
  Center, Ohio State University..................................    16
    Prepared statement...........................................    39
Reed, Debbie, Legislative Director, National Environmental Trust.    20
    Prepared statement...........................................    44
Rosenzweig, Cynthia, Research Scientist, Goddard Institute for 
  Space Studies, Columbia University.............................    22
    Prepared statement...........................................    50
Stallman, Robert, President, American Farm Bureau Federation.....    14
    Prepared statment............................................    37

                          ADDITIONAL MATERIAL

Letter, Carbon Sequestration, International Association of Fish 
  and Wildlife Agencies..........................................    59
Statements:
    International Association of Fish and Wildlife Agencies......    55
    National Farmers Union.......................................    54

                                 (iii)

  

 
  CLIMATE CHANGE ISSUES: AGRICULTURAL SEQUESTRATION OF CARBON DIOXIDE

                              ----------                              


                         TUESDAY, JULY 8, 2003

                               U.S. Senate,
     Subcommittee on Clean Air, Climate Change and 
                                    Nuclear Safety,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:42 a.m. in 
room 406, Senate Dirksen Building, the Hon. George V. Voinovich 
[chairman of the committee] presiding.
    Present: Senators Voinovich and Carper.

  OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR 
                     FROM THE STATE OF OHIO

    Senator Voinovich. The meeting will please come to order.
    I apologize to you for being late. I had a breakfast 
downtown and ran into a lot of traffic.
    We are here today to discuss agricultural sequestration of 
carbon. Specifically, today's hearing will focus on the 
potential for agricultural sequestration to reduce 
concentration of atmospheric greenhouse gases, and the 
Administration's action to understand and enhance that 
potential.
    As everyone in this room is aware, the issue surrounding 
greenhouse gas emissions and climate change have become fairly 
controversial with people on both sides of the issues. To an 
extent, they have become the quid pro quo to move forward on 
legislation dealing with SOx, NOx, and mercury.
    I have stated several times that we need to enact a 
comprehensive energy policy that harmonizes the needs of our 
economy and our environment. Nowhere is that need more 
important than with the issue of greenhouse gas emissions and 
climate change, where the options that have been proposed to 
mitigate potential human impacts on the climate and related 
environmental systems are likely to have substantial economic 
and societal consequences, and where there is a raging debate 
about whether there are any conclusive environmental benefits 
from implementing them.
    As we look to the issue of surrounding greenhouse gas 
emissions and the stability of our utility manufacturing and 
industrial sectors, it is very clear that the nexus between the 
environment and the economy, rather than an academic or 
political exercise, is a real issue for those who will be 
affected by the decisions we make on this Committee and in the 
Senate.
    We in the Senate are here as public policymakers and must 
have reliable and readily understood information in order to 
make informed decisions about them. In 2002, the total 
greenhouse gas emissions in carbon dioxide equivalent terms 
were about 14 percent higher than emission levels in 1990. 
CO<INF>2</INF> accounted for 82 percent of total U.S. 
greenhouse gas emissions; methane accounted for 9 percent; 
nitrous oxide accounted for 6 percent; and other gases 
accounted for the rest.
    The Administration projects that total U.S. greenhouse gas 
emissions will increase by 43 percent between 2000 and 2020. 
Several uncertainties are associated with this projection 
including forecast methodology, meteorological variations, and 
rates of economic growth and technological development. 
Further, the Administration's projections do not incorporate 
future measures to address greenhouse gas emissions or 
legislative and regulatory actions not yet in effect.
    Despite the fact that many of the environmental community 
argue that the science of the causes, effects, and extent of 
climate change is settled there is, in fact, real controversy 
over whether or not greenhouse gas emissions affect the 
climate. The National Research Council has noted that 
fundamental scientific questions remain regarding the specifics 
of the connection between atmospheric greenhouse gas 
concentration and projections of climate change.
    According to the National Academy of Sciences, potential 
risks of increased concentration of greenhouse gases are 
generally characterized as long-term in nature and the current 
scientific knowledge and ability are insufficient to conclude 
whether these shifts are a result of human activities.
    Just yesterday, former Secretary of Energy James 
Schlesinger published an op-ed in the Washington Post noting 
that we are making only slow progress in our understanding. I 
would just like to quote from a couple of paragraphs from his 
op-ed piece.
    ``We cannot tell how much of the recent warming trend can 
be attributed to the greenhouse effect and how much to other 
factors. In climate change we only have a limited grasp of the 
overall forces at work. Uncertainties have continued to abound 
and must be reduced. Any approach to policy formation under 
conditions of such uncertainty should be taken only on an 
exploratory and sequential basis. A premature commitment to a 
fixed policy can only proceed with fear and trembling.''
    He finishes the op-ed piece with this:

    ``There is an idea among the public that the science is 
settled. Aside from the limited facts I cited earlier, that 
remains far from the truth. Today we have far better 
instruments, better measurements, and better time series than 
we ever had. Still, we are in danger of prematurely embracing 
certitudes and losing open-mindedness. . . . We need to be more 
modest.''

    I want to insert in the record this op-ed.
    Without objection, so ordered.
    [The article follows:]

                [From the Washington Post, July 7, 2003]

               Climate Change: The Science Isn't Settled
                         (By James Schlesinger)

    Despite the certainty many seem to feel about the causes, effects 
and extent of climate change, we are in fact making only slow progress 
in our understanding of the underlying science. My old professor at 
Harvard, the great economist Joseph Schumpeter, used to insist that a 
principal tool of economic science was history--which served to temper 
the enthusiasms of the here and now. This must be even more so in 
climatological science. In recent years the inclination has been to 
attribute the warming we have lately experienced to a single dominant 
cause--the increase in greenhouse gases. Yet climate has always been 
changing--and sometimes the swings have been rapid.
    At the time the U.S. Department of Energy was created in 1977, 
there was widespread concern about the cooling trend that had been 
observed for the previous quarter-century. After 1940 the temperature, 
at least in the Northern Hemisphere, had dropped about one-half degree 
Fahrenheit--and more in the higher latitudes. In 1974 the National 
Science Board, the governing body of the National Science Foundation, 
stated: ``During the last 20 to 30 years, world temperature has fallen, 
irregularly at first but more sharply over the last decade.'' Two years 
earlier, the board had observed: ``Judging from the record of the past 
interglacial ages, the present time of high temperatures should be 
drawing to an end . . . leading into the next glacial age.'' And in 
1975 the National Academy of Sciences stated: ``The climates of the 
earth have always been changing, and they will doubtless continue to do 
so in the future. How large these future changes will be, and where and 
how rapidly they will occur, we do not know.'' These statements--just a 
quarter-century old--should provide us with a dose of humility as we 
look into the more distant future. A touch of that humility might help 
temper the current raging controversies over global warming. What has 
concerned me in recent years is that belief in the greenhouse effect, 
persuasive as it is, has been transmuted into the dominant forcing 
mechanism affecting climate change--more or less to the exclusion of 
other forcing mechanisms. The CO<INF>2</INF>/climate-change 
relationship has hardened into orthodoxy--always a worrisome sign--an 
orthodoxy that searches out heretics and seeks to punish them.
    We are in command of certain essential facts. First, since the 
start of the 20th century, the mean temperature at the earth's surface 
has risen about 1 degree Fahrenheit. Second, the level of 
CO<INF>2</INF> in the atmosphere has been increasing for more than 150 
years. Third, CO<INF>2</INF> is a greenhouse gas--and increases in it, 
other things being equal, are likely to lead to further warming. Beyond 
these few facts, science remains unable either to attribute past 
climate changes to changes in CO<INF>2</INF> or to forecast with any 
degree of precision how climate will change in the future.
    Of the rise in temperature during the 20th century, the bulk 
occurred from 1900 to 1940. It was followed by the aforementioned 
cooling trend from 1940 to around 1975. Yet the concentration of 
greenhouse gases was measurably higher in that later period than in the 
former. That drop in temperature came after what was described in the 
National Geographic as ``six decades of abnormal warmth.''
    In recent years much attention has been paid in the press to longer 
growing seasons and shrinking glaciers. Yet in the earlier period up to 
1975, the annual growing season in England had shrunk by some 9 or 10 
days, summer frosts in the upper Midwest occasionally damaged crops, 
the glaciers in Switzerland had begun to advance again, and sea ice had 
returned to Iceland's coasts after more than 40 years of its near 
absence.
    When we look back over the past millennium, the questions that 
arise are even more perplexing. The so-called Climatic Optimum of the 
early Middle Ages, when the earth temperatures were 1 to 2 degrees 
warmer than today and the Vikings established their flourishing 
colonies in Greenland, was succeeded by the Little Ice Age, lasting 
down to the early 19th century. Neither can be explained by 
concentrations of greenhouse gases. Moreover, through much of the 
earth's history, increases in CO<INF>2</INF> have followed global 
warming, rather than the other way around.
    We cannot tell how much of the recent warming trend can be 
attributed to the greenhouse effect and how much to other factors. In 
climate change, we have only a limited grasp of the overall forces at 
work. Uncertainties have continued to abound--and must be reduced. Any 
approach to policy formation under conditions of such uncertainty 
should be taken only on an exploratory and sequential basis. A 
premature commitment to a fixed policy can only proceed with fear and 
trembling.
    In the Third Assessment by the International Panel on Climate 
Change, recent climate change is attributed primarily to human causes, 
with the usual caveats regarding uncertainties. The record of the past 
150 years is scanned, and three forcing mechanisms are highlighted: 
anthropogenic (human-caused) greenhouse gases, volcanoes and the 11 
year sunspot cycle. Other phenomena are represented poorly, if at all, 
and generally are ignored in these models. Because only the past 150 
years are captured, the vast swings of the previous thousand years are 
not analyzed. The upshot is that any natural variations, other than 
volcanic eruptions, are overshadowed by anthropogenic greenhouse gases.
    Most significant: The possibility of long-term cycles in solar 
activity is neglected because there is a scarcity of direct 
measurement. Nonetheless, solar irradiance and its variation seem 
highly likely to be a principal cause of long-term climatic change. 
Their role in longer term weather cycles needs to be better understood.
    There is an idea among the public that ``the science is settled.'' 
Aside from the limited facts I cited earlier, that remains far from the 
truth. Today we have far better instruments, better measurements and 
better time series than we have ever had. Still, we are in danger of 
prematurely embracing certitudes and losing open-mindedness. We need to 
be more modest.
    The writer, who has served as secretary of energy, made these 
comments at a symposium on the 25th anniversary of the Energy 
Department's CO<INF>2</INF>/climate change program.

    Senator Voinovich. I think in order to address the 
potential risks associated with greenhouse gas and emissions, 
the Administration has initiated several administrative and 
regulatory actions intended to reduce greenhouse gas emissions 
and enhance carbon sequestration, including agriculture carbon 
sequestration initiatives at the Department of Agriculture.
    Last month, Secretary Veneman announced several new 
initiatives to encourage greenhouse gas reduction and support 
voluntary actions by private land owners including farmers, and 
forest and grazing land owners to increase carbon storage. 
Specifically, the USDA will give consideration to management 
practices that store carbon and reduce greenhouse gases and 
setting priorities and implementing forest and agricultural 
conservation programs such as the Environmental Quality 
Incentives Program, the Wetland Reserve Program, and the Forest 
Land Enhancement Program.
    The USDA will also fund financial incentives, technical 
assistance, demonstration, pilot programs, education and 
capacity building, along with the measurements to assess the 
success of these efforts.
    I have long been a supporter of such programs, even when I 
was unaware of their benefits in reducing greenhouse gas 
concentration. When I was Governor of Ohio, we planted 15 
million trees during the 8 years that I was Governor of the 
State. At the same time, I knew that it was good for the 
environment, and it would certainly help the air. But it was 
only later, once I had moved onto this Committee, that I was 
told by Dr. Lal, who will be testifying today, that that kind 
of program and the legislation that I sponsored when I was in 
the State legislature on reclaiming all of our strip mines, has 
had a real measurable impact on reducing carbon in our 
atmosphere.
    I hope that today's hearing will provide us with an 
understanding of the agricultural sector's potential to 
sequester carbon and to increase productivity, and where the 
Administration's programs are providing resources and research 
in the most effective manner to ensure that our farmers can 
reach that potential.
    We are very fortunate today that our first witness is Bruce 
Knight, the Chief Executive Officer of the Natural Resources 
Conservation Service at the Department of Agriculture. Mr. 
Knight, we are very happy to have you here with us this 
morning. We are looking forward to hearing your testimony.

  STATEMENT OF BRUCE KNIGHT, CHIEF EXECUTIVE OFFICER, NATURAL 
  RESOURCES CONSERVATION SERVICE, UNITED STATES DEPARTMENT OF 
                          AGRICULTURE

    Mr. Knight. Thank you, Mr. Chairman, for the opportunity to 
discuss the Department of Agriculture's carbon sequestration 
activities.
    The issue of climate change is a high priority for 
Secretary Veneman and for each of our respective mission areas 
across the Department. Last month, as you know, Secretary 
Veneman announced a series of actions that the Department will 
take to increase carbon sequestration and reduce greenhouse gas 
emission from forest and agriculture.
    The actions represent a major step forward for the 
Department. For the first time, USDA will include the reduction 
of greenhouse gases as a consideration while setting priorities 
and in allocating resources for the conservation programs that 
we administer.
    Coupled with the increases in overall conservation 
spending, these actions are expected to increase the carbon 
sequestration and greenhouse gas emissions reductions from the 
conservation programs by over 12 million tons of carbon 
equivalent in 2012. This represents approximately 12 percent of 
President Bush's goal to reduce greenhouse gas intensity by 18 
percent in the next decade.
    I would point out to members of the Subcommittee that we 
are talking about carbon and carbon equivalents, which includes 
methane and nitrous oxide. Also, it is important to note that 
greenhouse gas intensity refers to the rate of emissions as 
compared to overall domestic economic performance. USDA's 
conservation programs were designed to offer assistance and 
incentives to farmers and other land owners in addressing 
multiple conservation and environmental challenges.
    Historically, programs have focused on reducing soil 
erosion, improving water quality, creating wildlife habitat, 
reducing air pollution, and protecting sensitive areas. While 
maintaining these priorities, the programs will now also 
include explicit consideration of greenhouse gas reductions and 
carbon sequestration. We can accomplish this without 
compromising our other objectives because in many cases the 
technologies and practices that reduce greenhouse gas emissions 
and increase carbon sequestration also address other 
conservation priorities.
    For example, the very item that you mentioned, Senator, 
planting trees and other natural covers can increase above and 
below ground carbon. Most importantly--and this is one that I 
cannot stress enough--crop land does not need to be taken out 
of production in order to be able to sequester carbon. For 
example, conservation tillage increases the level of soil 
organic matter and provides many related benefits, while 
continuing strong and vibrant crop production.
    There are many opportunities to apply these practices in 
the U.S. As a farmer myself for much of my life in the State of 
South Dakota, I would note that nationally crop land soils have 
lost at least a third, and some up to 60 percent of their 
carbon, since they were first converted to crop production, 
beginning about 200 years ago.
    In the case of my own farm operation, most of those soils 
have not been under cultivation for over 100 years. Many areas 
of my own operation have come into production within the past 
20 years, while maintaining an under-intensive conservation 
tillage. In fact, today's no-till practices, along with our 
rest/rotation grazing system, had been aimed at improving soil 
functions and health. I can state firsthand that I have seen 
tremendous benefits to my own operation from season-to-season, 
but also benefits by building soil organic matter for the long-
term as well.
    While those of us in agriculture see the benefits up close, 
at the Department we are working to utilize the portfolio of 
existing conservation programs to build carbon above and below 
the soil on a much more broad scale. Within the Agency I 
oversee, NRCS provides financial and technical assistance that 
can help with carbon sequestration under the Environmental 
Quality Incentives Program. We have provided guidance to 
States, to reward actions that sequester carbon and reduce 
greenhouse gases within the equipped ranking system. These 
efforts can include the soil conservation practices already 
mentioned, and technologies to reduce methane emissions from 
livestock waste.
    We also recently hosted a summit on one of these promising 
technologies--anaerobic digesters. Anaerobic digesters, in 
fact, work to convert animal waste to energy by capturing and 
converting the methane that is given off. At that summit, we 
unveiled three new conservation practice standards specifically 
for digesters.
    These new standards will have two major benefits. They will 
make it possible for producers to fit anaerobic digesters into 
their equipped contracts as parts as a comprehensive nutrient 
management plan and they will make it possible for producers to 
use outside resources, technical service providers, to plan and 
construct those digesters.
    Many other conservation programs, including the 
Conservation Reserve Program, Wetlands Reserve Program, 
Wildlife Habitat Improvement Program, and the Forest Land 
Enhancement Program, have excellent prospects for sequestration 
of greenhouse gases.
    For example, under the new farm bill, the Wetland Reserve 
Program alone will restore and protect about 1.2 million acres 
of wetlands, roughly a land area the size of Delaware alone. We 
know that what happens on farms and ranches can have a 
tremendous positive impact for everyone. It is important for us 
to better measure those efforts and to get the message out.
    To summarize, I would like to highlight the key steps that 
USDA plans to undertake. First, improve the methods for 
measuring and estimating above and below ground carbon storage 
on forest and agricultural systems. Next, collect carbon flux 
measurement data at specific locations that can, in turn, be 
scaled to regional and national statistics. Third, develop 
management practices and techniques for increasing carbon 
sequestration and reducing greenhouse gas emissions. Fourth, 
support demonstration projects to facilitate the incorporation 
of carbon sequestration into USDA programs. And finally, 
finalize new accounting rules and guidelines for estimating and 
reporting carbon sequestration and greenhouse gas emissions 
from forest and agricultural activities.
    USDA continues to invest in research to improve our 
understanding of how crops, livestock, trees, and even pests in 
other facets of our ecosystems will respond either positively 
or negatively to higher levels of greenhouse gases in the 
atmosphere. We are seeking cost effective ways to make 
agriculture and forests more adaptable to any changes in 
climate and weather should they occur.
    We are pursuing an improved understanding of the role of 
natural and managed ecosystems in the global carbon cycle. We 
are developing technologies and practices to reduce emissions 
of greenhouse gases and increase carbon sequestration. We are 
now harnessing the portfolio of conservation programs to build 
carbon back into the soil and vegetation, integrating 
greenhouse gas considerations in all our conservation efforts.
    Mr. Chairman, thank you again for the opportunity to 
address this Subcommittee. I would be happy to attempt to 
respond to any questions that you may have. I would ask that my 
written statement be placed in the record in its entirety.
    Senator Voinovich. Without objection, so ordered. Thank you 
very much.
    You mentioned in your testimony how this initiative on the 
part of the Department of Agriculture fits in with the 
President's 18 percent reduction in greenhouse gases. Would you 
underscore it some more?
    Mr. Knight. The initiative that we are putting under way is 
really intended to put the enabling platform out there for the 
farmers and ranchers who would voluntarily need to step forward 
in being able to help achieve these objectives. We put that 
enabling platform in place by ensuring that when we are doing 
any sort of conservation work on the ground, that we also keep 
an eye at what we can do for carbon sequestration.
    I mentioned that as much as 12 percent of the overall 
President's objectives could be met thorough these 
methodologies. EQIP alone would bring us halfway to that goal, 
simply by having ensured that as we are implementing these 
programs we are doing things that either do greenhouse gas 
avoidance, mitigation, or sequestration.
    Senator Voinovich. You talked about being able to measure 
and capture the statistics. How precise is that technology that 
would allow you to do that? How precise can you get in terms of 
measuring what impact it has in terms of sequestration?
    Mr. Knight. We are continuing to work to improve the 
precision, the reliability, and the ability to verify and 
repeat each of those measures. The Department of Agriculture, 
NRCS, is in a leading position and is working very closely with 
the Department of Energy and EPA in ensuring that across the 
Agency lines we have agreement on the verifiability and the 
measurability of each of these practices.
    There are continuing efforts to enhance that. It is a real 
struggle to ensure that you have something that is reliable 
enough for the market place to step in. We have actually been 
working very closely with some of the folks in the private 
community that are interested in doing carbon trading. It is 
very important that we provide this basis of measurements that 
they can then use in the private sector to make the private 
carbon trading sequestration efforts work, and work reliably.
    Senator Voinovich. Mr. Knight, I have always been a strong 
supporter of the public-private partnership. I believe this is 
the way the Government should be run. I was interested to read 
in your testimony how the Department is working on 
sequestration with private entities such as the American Forest 
and Paper Association. Can you give us a little more 
information about these partnerships and how along are they? 
Have these just come about in the last month or two?
    Mr. Knight. Certainly the American Forest and Paper 
Association, Weyerhauser, and several of those have been 
working very closely with the Forest Service on how to build 
those partnerships. In the case of the Natural Resources 
Conservation Service, we have been working on the measurement 
side with a couple of the companies that are trying to put the 
trading mechanisms in place, either from the Chicago Exchange 
or others, that are looking at being able to do that. There is 
a real ground-swell of private sector interest in moving 
forward on these voluntary partnership approaches.
    Senator Voinovich. Does that anticipate that down the road 
there would be some trading going on?
    Mr. Knight. That is certainly the expectation of that 
community that is working with us on the measurability and 
verifiability of these practices.
    Senator Voinovich. In terms of the Department of 
Agriculture, I am delighted to know that this could be a two-
for. I was one of those that was a little skeptical about the 
farm bill. We put a lot of money into this proportion of it. Do 
you recall the number?
    Mr. Knight. We have nearly an $18.5 billion increase for 
conservation programs alone over the life of the farm bill.
    Senator Voinovich. The fact is that you are going to 
coordinate that expenditure of money with the sequestration is 
very encouraging.
    Mr. Knight. Thank you. It is also very important that while 
the science is still evolving, we are able to make the best and 
most practical decisions of how we achieve our other 
conservation objectives--soil erosion, water quality--while 
being able to find that win-win solution. That may be able to 
help us on greenhouse gases while the science continues to 
evolve and build. In that way we are not sacrificing in any way 
our core objectives of water and soil quality, but we are able 
to find these win-win solutions that have enhancements.
    Senator Voinovich. Do you think that beyond the money that 
the Department of Agriculture puts into this, that there is a 
potential to even do more in the arena? By that, I mean, you 
are going to be paying farmers to get involved in these 
projects and to spend this money. Is there any other 
possibility that beyond what you are doing that, for example, 
if private sector people wanted to invest and encourage people 
in the agriculture and the forest business to do more in that 
area, that that is a potential?
    Mr. Knight. It is certainly a potential, sir. It is to make 
meaningful gains on carbon sequestration. Even with the 
resources that the Department of Agriculture has, they are 
modest compared with the potential that you can see as we have 
illustrated already.
    That is one of the reasons why in the Environmental Quality 
Incentives Program, we clarified the rules this year that would 
allow a producer who is utilizing the EQIP Program, to go ahead 
and trade any carbon sequestration credits that may result of 
that investment on the open market, should those markets come 
about. Short of a market place development, that is going to be 
very important and key for the long-term ability to achieve 
these sorts of objectives.
    Senator Voinovich. One of the things that I was interested 
in is this. You stated that the Department is involved ``in the 
Government's activities to address climate change, including 
international bilateral and multilateral cooperation. Can you 
tell the Committee what the Department has been involved with 
in terms of the international arena?
    I think sometimes we think about the issue of greenhouse 
gases and carbon as being a U.S. situation. It is a worldwide 
situation, and one of the concerns that many people have is 
that we could deal with our problem and not see any kind of 
corresponding activity going on in other parts of the world 
since we are all part of this whole situation. Could you tell 
me what is going on in that arena?
    Mr. Knight. When Mr. Connaughton testified before you a 
year ago, he made mention of several of the bilateral 
negotiations that have been going on. There are nearly 14 
agreements with countries around the world that the USDA and 
the State Department have been involved in--India, China, and 
Russia, for example. We would be pleased, in follow up work, to 
give you a more detailed list of those endeavors that the 
Department has been involved in.
    Senator Voinovich. Thank you.
    Without objection, so ordered.
    [The information referred to follows:]

    USDA works closely with the Department of State and other 
technical agencies and departments to support US bilateral and 
multilateral climate change efforts. The United States 
international global climate change strategy emphasizes 
cooperation with key partners and promotes work with other 
nations to develop an efficient and coordinated response to 
global climate change. Over the past 2 years, the Department of 
State has pursued a series of 14 bilateral agreements with 
other countries and groups of countries. The countries include: 
Australia, Canada, China, seven Central American countries 
CONCAUSA (Belize, Costa Rica, El Salvador, Guatemala, Honduras, 
Nicaragua, and Panama), the European Union, India, Italy, 
Japan, Mexico, New Zealand, Republic of Korea, South Africa, 
Brazil, and the Russian Federation. There is a keen interest in 
forest and agriculture issues related to climate change in many 
of these countries. The range of interests includes assessments 
of the potential impacts of climate change, inventories of 
greenhouse gas emissions and sinks from forests and 
agriculture, and the pursuit of mitigation opportunities.
    Specifically the Department of State requested assistance 
from USDA in coordinating potential forestry and agriculture 
activities and projects in response to requests from these 
countries. USDA has provided inventories of current activities, 
explored proposals to initiate new cooperative work, and served 
on State Department delegation that met with representatives of 
other governments.
    USDA also supports the Department of State in multilateral 
efforts. USDA representatives have served on State Department 
led delegations to international scientific and policy 
meetings, including ongoing negotiations under the Framework 
Convention on Climate Change (UNFCCC) and scientific meetings 
of the Intergovernmental Panel on Climate Change (IPCC).
    Senator Voinovich. Senator Carper, do you have an opening 
statement?

 OPENING STATEMENT OF HON. THOMAS R. CARPER, U.S. SENATOR FROM 
                     THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman. I am pleased to be 
with you, and I am pleased that you are with us.
    Mr. Knight, welcome. It is good to see you. I apologize for 
being a little bit late.
    I have a statement here. I think this hearing is a revival 
to all of us. I have not been able to read your testimony, Mr. 
Knight, but I will see a summary of it. I look forward to 
reading that.
    In the legislation that Senators Gregg, Chafee, and I have 
introduced, we anticipate reductions in CO<INF>2</INF> over the 
next dozen years. In doing that, we permit utility plants to 
invest in technology to reduce CO<INF>2</INF> emissions. If 
they choose to change their mix of fuels, they could do that. 
We also enable the emitter to underwrite the costs of 
reforestation, the changes in planting patterns, and even 
changes out of feedlot operations, in order to address the 
issues of increasing greenhouse gases.
    Could you just talk with me a little bit today about how 
such a system would work? You have the emitter on the one hand 
who needs the credit for the emission reductions. They choose 
not to change the fuel mix. They choose not to invest in 
technology. They say they are going to go a third way.
    I think I am pretty clear on reforestation. Talk with me a 
little bit about planting patterns and how this might help us 
in this battle. Talk with me a little bit about feedlot 
operations. Talk about any others that I am not aware of.
    Mr. Knight. At the Department we have continued to work on 
this issue. You are seeing quite an evolution of mindset on 
what you can do. I will just give a couple of examples. This is 
as much from my own experience as a farmer as it is from the 
experience from the Department.
    I have no-till on my operation, which means that I have 
replaced what used to be three or four tillage passes with one-
plant/one-pass at planting. This means a lot less soil 
disturbance. I have removed the summer fallow that I used to 
have in the operation where we would let it rest for a year to 
save moisture.
    All of those tillage practices churn up the soil, mixes the 
stubble and the aftermath into the soil, and speeds up 
decomposition. Instead that is sitting on top of the soil 
building organic matter. It is improving the overall level of 
organic matter in that soil. That means that we have 
dramatically boosted the overall amount of carbon that is 
sequestered on those soils.
    I will give you an example from the livestock side. There 
are two ways to control greenhouse gas emissions on livestock. 
One are things like the methane digesters, where we capture the 
methane that may be given off by the manure, and are able to 
run that through a generation facility of some sort, burn that 
off, create electricity, and convert that into hopefully a 
better and more stable gas. Or, you do avoidance. You can do 
avoidance by how you either manage the manure, or in what you 
feed the critter at the front end and have a better match of 
their nutritional needs.
    Each of those are methods that we can do to either avoid 
greenhouse gases, or control them from being emitted.
    Senator Carper. The animal operations with respect to 
methane, is that something that is being talked about or is it 
something that is actually being done on a widespread basis?
    Mr. Knight. We are working very aggressively on that. We 
put several standard changes in place this year in one of our 
most important programs, EQIP, in order to ensure that we could 
do cost-share and assistance with farmers and ranchers that are 
wanting to put methane digesters in place. So, yes, we are 
doing that very rapidly.
    Senator Carper. In addition to reforestation, the kind of 
no-till approach you have described, and the animal lot 
operations, what other opportunities are there out there that 
maybe I am not mindful of?
    Mr. Knight. The other side of the work that the Department 
of Agriculture is doing a great deal of effort on is how to 
ensure that we have a registry established between the 
Department of Agriculture, DOE, and EPA. Once we have these 
efforts underway, the question is how do you measure them, how 
do you make sure that they are repeatable and verifiable, and 
able to register them. The market place can then help those 
utilities trade that particular credit that may result from the 
activities that a farmer is doing and the activities that the 
utility may want to be able to offset.
    The final component that you see folks already starting to 
work on, and is going to be very important, is that the 
utilities tend to not want to work with 500 farmers out there. 
What is needed is an aggregator that actually combines the 
interests and efforts of 400 or 500 farmers across the 
geographic area, puts that together, pools that, and then 
transfers that pooled collective action to something that a 
utility or some other purchaser of those credits may be 
interested in buying.
    Senator Carper. If I understood you correctly, you are 
talking about a registry? I would call it almost an entity to 
certify the value of the amount of sequestration or reduction 
of CO<INF>2</INF>. There has to be some entity there.
    I had not thought about the aggregator before we talked 
about the registry. I am sure that others, like Jim Reilly 
sitting right behind me, have thought about the aggregation. If 
I were an utility, I would not want to deal with 500 or 5,000 
farmers if I could deal with just one entity.
    I was just thinking, Mr. Chairman, we have farmers in Ohio 
and Delaware and a lot of other places where they are badly 
strapped financially these days. Commodity prices are not what 
they need in order to make much of a living. In order to be 
able to come up with ways for farmers to sustain themselves 
economically, one of the ways they can do it is to encourage 
the use of more bio-fuels, whether it is bio-diesel or ethanol. 
That will enable the farmers to supplement their incomes as 
well through a market system instead of a system that some 
would describe as welfare payments to our farmers.
    Let me ask another question of you, if I could, Mr. Knight. 
Do you believe that it would be prudent to reduce our net 
emissions of greenhouse gases given what we have heard from the 
National Academy and other world scientists? If you think it 
might be prudent, would you explain why?
    Mr. Knight. Sir, I tend to be a pragmatist on these things. 
There is a clear opportunity in managing this Agency for us to 
be able to find these win-win solutions of the work that we are 
doing on conservation, on water quality, on soil conservation, 
and to be able to have a reduction in greenhouse gases as a 
result of carbon sequestration from that aspect.
    While I continue to see a vast array of scientific debate 
about how far to go and how rapidly to go, I see for the Agency 
an opportunity while that debate swirls, for us to manage our 
way through it in a manner that just continues moving ahead on 
those things and finding that win-win solution. We are going 
ahead with those opportunities of being able to do that while 
that larger debate swirls.
    Senator Carper. It is going to swirl for a while.
    What do you think some of the risks are to American 
agriculture of increasing greenhouse gas emissions and global 
climate change?
    Mr. Knight. One of the more intriguing scientific efforts 
that the Department is pursuing is what the potential impacts 
of greenhouse gases are on the pest community. We have to look 
not only what the greenhouse gas emissions do conceivably to 
the production of corn, soybeans, cotton, or rice, but also 
what do those greenhouse gas emissions do to the weeds that are 
in that field. Does that put a particular weed at a greater 
advantage compared with those crops in competing for the 
limitations of soil, water, air, and sunlight?
    You have the same sort of things with the insect community 
if you have changes in temperatures, growing degree days, all 
of those sorts of things. There is a large amount of research 
that has to be done in that arena as well as we move forward on 
looking to manage through this very difficult issue.
    Senator Carper. Can you talk with us a little bit about 
weather patterns and how that may have some impact on 
agriculture?
    Mr. Knight. I may have to beg off and have us follow up 
with you on that one. Weather patterns are a little beyond my 
comfort level to discuss.
    Senator Carper. All right.
    Senator Voinovich. Without objection, so ordered.
    [The information referred to follows:]

    Recent studies have examined the potential implications of 
climate change for U.S. agriculture. Most studies indicate 
that, for a range of potential climate changes and atmospheric 
CO<INF>2</INF> levels, crop production in the United States 
during the 21st century will not be imperiled. Under some 
scenarios, productivity of many major crops increased at a 
national level. However, not all agricultural regions of the 
United States are projected to be affected to the same degree 
or in the same direction by the climates simulated in the 
various scenarios. In general, the Midwest (especially the 
northern half), West, and Pacific Northwest exhibit large gains 
in yields for most crops while the South and Southern Plains 
exhibit losses in yields.
    However, the multifaceted impacts of climate change defy a 
simple characterization. The results for one crop or one region 
may be opposite the results for another crop or another region. 
Further, the details of climate change and its impacts on 
agriculture remain hard to predict with confidence given the 
existing state of the science, but the results of this study 
offer some detailed estimates as a first step toward thinking 
about how U.S. agriculture can better prepare for the climate 
changes it may face in the future.
    As noted by the National Research Council, in response to 
questions from the Administration on the state of climate 
change science ``one of the weakest links in our knowledge is 
the connection between global and regional predictions of 
climate change.'' The National Research Council's response to 
the President's request for a review of climate change policy 
specifically noted that fundamental scientific questions remain 
regarding the specifics of regional and local projections (NRC 
2001). Predicting the potential impacts of climate change is 
compounded by a lack of understanding of the sensitivity of 
many environmental systems and resources--both managed and 
unmanaged--to climate change.

    Senator Carper. Mr. Chairman, I have one more question, if 
you do not mind.
    Senator Voinovich. Go ahead.
    Senator Carper. I read your biographical information. Do 
you grow corn on your farm? What do you grow on your farm?
    Mr. Knight. I have corn, wheat, sunflowers some years, 
soybeans, alfalfa, and a cow-calf operation.
    Senator Carper. I am a proponent of bio-diesels. In 
Delaware we use a mixture of 20 percent soy oil and 80 percent 
diesel. As I understand from the perspective of corn growers 
and their position on ethanol, and that of bio-diesel 
proponents, these non-petroleum products have several 
beneficial effects, including reducing greenhouse gas 
emissions.
    What is the Department, to your knowledge, to treat 
greenhouse gas emissions in its own operations and reducing its 
petroleum consumption? I think there are two goals identified 
in an Executive Order. One of them deals with greenhouse gas 
reduction goals and the other relates to petroleum.
    Please comment on what the Department itself is doing.
    Mr. Knight. I will make mention of a couple of things. I 
will have staff follow up with you and provide you that for the 
record.
    Senator Carper. Thank you.
    Senator Voinovich. Without objection, so ordered.
    [The information referred to follows:]

    USDA's Energy and Environment program strives to improve 
the ``greening'' of USDA's facilities, fleets, and operations 
nationwide by implementing pertinent energy legislation and 
``Greening the Government'' Executive Orders. The program 
focuses on increasing energy efficiency and use of renewable 
energy sources at USDA facilities; use of alternative fuels in 
Agency fleets; acquisition of environmentally preferable, 
biobased, and recycled content products; and recycling and 
waste prevention activities.
    The Department has developed an Energy Implementation Plan 
focused on specific action areas targeted to achieve the 30 
percent energy consumption goal for fiscal year 2005. The 
Forest Service, Agricultural Research Service, and Office of 
Operations each developed agency specific plans that are part 
of the overall plan. More information is available at: http://
www.usda.gov/energyandenvironment/index.html

    Mr. Knight. There is a good study recently completed that 
talks about the net energy balance of bio-fuels--ethanol and 
bio-diesel--as it pertains to greenhouse gas emissions. It 
shows there is a very positive balance there. That supplements 
work a couple of years old that Argonne National Laboratories 
had conducted that was very positive.
    We are continuing to move forward in the implementation of 
the farm bill on each of those sections including the 
acquisition of renewable products and the acquisition there. 
That has turned to be a fairly problematic provision to 
implement because of the way that it was constructed. We are 
continuing to move forward very quickly on that. I will include 
in that follow up work the time line we are on there.
    There is, however, the continued efforts that each of the 
Agencies do as it pertains to new vehicle acquisitions and 
those sorts of things. I believe last year, in the case of the 
Natural Resources Conservation Service, nearly 90 percent of 
our vehicle acquisitions last year fell into the flexible fuel 
category, which meant that they, in turn, could operate on a 
traditional blend of gasoline, a 10 percent ethanol blend, or 
even as high as an 85 percent ethanol blend.
    Each of the Agencies have tried to meet those objectives in 
a variety of ways. Certainly the vehicle acquisitions have been 
an important component of that endeavor.
    Senator Carper. All right. Mr. Knight, thank you for being 
here today. I look forward to some follow from you. We 
appreciate your presence, your testimony, and your stewardship.
    Mr. Knight. Thank you.
    Senator Voinovich. Thank you very much. It was very good 
testimony. It was very good hands-on. You really understand it. 
Thanks for being here today. We look forward to working with 
you.
    Mr. Knight. Thank you.
    Senator Voinovich. We are very fortunate to have our next 
panel, which includes Robert Stallman, President, American Farm 
Bureau Federation; Dr. Rattan Lal, Director, Carbon Management 
and Sequestration Center, the Ohio State University. Dr. Lal 
has testified before this Committee a couple of times during 
the last several years. I was fortunate to have a presentation 
made by Dr. Lal when I was there at the Ohio State University a 
couple of weeks ago. We were talking about sequestration and 
what they are doing on that in conjunction with the Battelle 
Institute.
    We also have Joseph Bast, President, the Heartland 
Institute. Mr. Bast, I am sure you will tell us a little bit 
about the Heartland Institute. It sounds healthy.
    We have Debbie Reed, Legislative Director, National 
Environmental Trust; and Dr. Cynthia Rosenzweig, Research 
Scientist, Goddard Institute for Space Studies. We will get 
that perspective on things.
    Without further words, we will call on Mr. Stallman from 
the American Farm Bureau. I would like to say, Mr. Stallman, 
that I have an excellent relationship with the Farm Bureau in 
the State of Ohio. They have been my good friends. We have 
worked together since the days when I was Governor. They 
provide me with an enormous amount of input whenever I need it, 
and sometimes when I do not need it. They are doing a good job. 
We are glad to have you here.

 STATEMENT OF ROBERT STALLMAN, PRESIDENT, AMERICAN FARM BUREAU 
                           FEDERATION

    Mr. Stallman. I am glad to hear that they are doing a good 
job, Mr. Chairman.
    Mr. Chairman, and members of the Subcommittee, I am Bob 
Stallman, President, of the American Farm Bureau Federation, 
and a rice and cattle producer from Columbus, Texas. On behalf 
of the 5.3 million members of the American Farm Bureau, I am 
pleased to be speaking to you today on agriculture's role in 
sequestering carbon in our Nation's soil.
    Carbon is the key building block for all things living. For 
those of us in agriculture, we have learned through years of 
research and practical experience that soil carbon is essential 
for optimizing the production of food and fiber, as well as 
improving the profitability of farming and ranching.
    The USDA's Agricultural Research Service estimates that 20 
million metric tons of carbon are currently sequestered each 
year in U.S. farm and grazing land soils. Many producers have 
made a decision on an economic basis to employ conservation 
tillage practices such as minimum till, no-till, and cover crop 
regimens in their operations. With more producers changing farm 
management practices, USDA and State Department personnel 
estimate that an additional 180 million metric tons annually 
could be stored in farm and range land acres.
    Carbon and its role in the climate change issue has been 
the subject of recent debate and will continue to be. We are 
not here today to discuss the merits or demerits of the theory 
of the climate change issue. With regard to carbon 
sequestration, our message is that agriculture can play a vital 
role.
    In 2001, President Bush announced the development of a 
comprehensive strategy to reduce greenhouse gas intensity in 
the United States by 18 percent by 2012. A vital component of 
the strategy is to encourage increased sequestration of carbon 
in forest and range lands.
    In February of this year, the President announced the 
Climate VISION Program. A voluntary public-private partnership, 
the primary goal of the program is to pursue cost-effective 
initiatives that will reduce the projected growth in American's 
greenhouse gas emissions. AFBF has begun discussions with the 
Administration to see what role the agricultural sector can 
play in the President's Climate VISION Program.
    Chief Knight did a good job of describing the new rules 
with respect to considering a greenhouse gas management 
practices in evaluating conservation programs. We view that as 
a very positive development. I will not repeat those comments.
    America's farm and ranch community has long supported and 
responded to voluntary incentive based programs, as evidenced 
by the waiting list to participate in the many conservation 
programs. Time and time again, when an environmental challenge 
has presented itself, American agriculture has answered the 
call.
    I would be remiss if I did not reiterate our opposition to 
any mandatory measures pertaining to climate change and carbon 
sequestration, but rather the need to maintain a voluntary 
approach to agricultural sequestration.
    While a mandatory cap and trade may increase the value of 
the carbon being sequestered, an analysis by Sparks Companies 
re-released last month, concludes that the increased energy 
cost to the agricultural sector associated with any Kyoto-like 
mandatory program would more than offset any cash value in the 
sequestration of carbon by farmers and ranchers on a per-acre 
basis.
    Agriculture has in the past, and will in the future, 
respond if the appropriate voluntary incentive-based tools are 
employed. Some of the needed tools like EQIP and CRP already 
exist. Private entities are also developing and piloting other 
tools such as voluntary carbon trading systems.
    In one case the Iowa Farm Bureau and Kansas Farm Bureau are 
involved. They are disseminating information to farmers and 
ranchers and helping to put land owners together with the 
carbon trading exchanges in an effort to trade carbon under 
free market rules. AFBF supports the development of a 
practical, voluntary carbon trading system and the development 
of trading criteria standards and guidelines.
    While the potential for agricultural carbon sequestration 
exists, many challenges do remain. One area that must be 
addressed is the development of methods and procedures to 
credit farmers and ranchers who have already employed 
conservation tillage practices and their operations.
    Other challenges include the refinement of carbon trading 
guidelines, the establishment of accurate crediting and values 
for sequestered carbon, and the development of other cost-
effective incentives to further advance carbon sequestration in 
agricultural soils.
    None of these challenges is insurmountable. AFBF looks 
forward to working with the USDA, the Department of Energy, the 
EPA, Congress, and many others within the private sector to 
find solutions and move forward with this endeavor.
    There is no doubt that agriculture can and will play an 
expanded role in sequestering carbon American's farmlands. We 
strongly support President's Bush voluntary approach to climate 
change issues and his call for the public and private sectors 
to work together to increase the sequestration of carbon on 
America's farm and range land.
    The American Farm Bureau appreciates this opportunity to 
come before you today to share our view on agriculture's role 
in sequestering carbon. I look forward to answering any 
questions you may have later. I would ask that my written 
statement be placed in the record in its entirety. Thank you.
    Senator Voinovich. Without objection, so ordered. Thank you 
very much, Mr. Stallman.
    Dr. Lal?

   STATEMENT OF RATTAN LAL, DIRECTOR, CARBON MANAGEMENT AND 
        SEQUESTRATION CENTER, THE OHIO STATE UNIVERSITY

    Mr. Lal. Thank you, Mr. Chairman, and members of the 
Committee.
    I greatly appreciate the opportunity to address this 
Committee today. I am Rattan Lal, Professor of Soil Science and 
Director of the Carbon Management and Sequestration Center at 
the Ohio State University.
    At the very outset, I acknowledge the very strong 
cooperation. We have a seed from the USDA, especially the NRCS. 
I would also like to point out that OSU is a member of the 
CASMGS initiative, which is indeed a very important undertaking 
to enhance carbon soil sequestration.
    The question of an increase in the atmospheric 
concentration of CO<INF>2</INF> since the 1850's can partly be 
addressed by: (a) reducing emissions, and (b) sequestering 
emissions. Strategies for emission reductions include enhancing 
energy production and user efficiency, and using renewable bio-
fuels.
    Emission sequestration, on the other hand, involves natural 
and engineering options. Important natural options include 
carbon sequestration in soils, vegetation, and wetlands. Some 
bio-fuel options are to switch grass, fast growing trees, and 
enhanced carbon sequestration.
    The weather carbon sequestration in soil and vegetation is 
called terrestrial sequestration, which I am going to address 
today.
    Aside from reducing the carbon dioxide concentration in the 
atmosphere, the terrestrial carbon sequestration has numerous 
benefits. Some of them were pointed out by Chief Knight, 
including for example, erosion and sedimentation control, water 
quality improvement, and increase in soil diversity. Over and 
above these environmental benefits, there is also a definite 
improvement in soil quality and crop productivity.
    In contrast to geologic and oceanic sequestration which may 
be expensive and perhaps have some unknown ecological impacts, 
the terrestrial carbon sequestration is the most cost effective 
option to date.
    An ecosystem with the capacity to absorb carbon dioxide 
from the atmosphere are called carbon sinks. Ocean and land are 
the two natural carbon sinks, which are presently absorbing 
about 4.7 billion tons of the total human-induced emissions of 
8 billion tons, which is about 60 percent of the total global 
emissions.
    Therefore, it is prudent to identify and enhance the carbon 
storage capacity of the natural sinks, such as soil and 
vegetation. It is in this context that agriculture, as Mr. 
Stallman has already pointed out, indeed has a very important 
and positive role to play in enhancing the capacity of the 
natural sinks.
    I might state that all the potential for the carbon 
sequestration in soil is about one million tons per day which 
is about 360 million metric tons of carbon equivalent per year. 
In addition to that, the forest biomass carbon capacity is 250 
million tons. Therefore, the total terrestrial sink capacity of 
forest and vegetation soils is 610 million tons, of which 220 
million tons are being absorbed today. Out of the 220 million 
tons, only 20 million tons are being absorbed in the soil 
sinks.
    This 610 million ton capacity contrasts with the 1,890 
million tons of carbon equivalent emitted by the Nation ever 
year. Out of that, 140 million tons is from agriculture. 
Therefore, the terrestrial sink capacity of 600 million tons 
potential is about one-third of the total national emissions, 
which is a very large amount indeed.
    Let us now look at the global picture comparing what was 
just pointed out. The soil carbon sink capacity on the world 
scale is about one billion tons a year, of which control has 
the capacity of about a half-billion tons. Now, one billion 
tons contrasts with about a three billion ton increase in the 
atmospheric CO<INF>2</INF> every year. That is one-third of the 
total annual increase.
    This potential, which is very large indeed, is possible 
through the Conservation Reserve Program. We indeed have one 
million hectares, 2.5 million acres, of unrestored strip mine 
land, which has a tremendous potential. The rate of carbon 
sequestration in soil in the United States ranges from a low of 
about 100 pounds per acre per year in a very dry climate, to 
perhaps as much as 1,000 pounds per acre per year in humid and 
cold climates. There is tremendous potential.
    I would like to make four points here which I think are 
very important. No. 1, the Conservation Reserve Program that 
Chief Knight has pointed out already, has been extremely 
successful. We have almost 14 million acres of land which is in 
a set-aside Conservation Research Program. The sediment load in 
the U.S. rivers, because of this conservation activity and 
other activities, has been reduced by 50 percent. It is a 
global success story which the farm ranches and the farm lands 
can also duplicate with carbon sequestration.
    The second point is promoting natural soil carbon 
sequestration and biomass carbon sequestration buys us time and 
relieves pressure in the industry to put a cap on the 
emissions.
    No. 3, the world soil has the potential of one billion tons 
over a 50 to 60 year period of the soil carbon sequestration. 
This potential has a very important implication in developing 
countries, especially the tropics. The Amazon Forest, which 
will have a pressure of reducing deforestation at a rate of 
nine to ten million hectares a year, that pressure can be 
relieved because we can produce more from the existing land to 
an adoption of conservation programs. Indeed, soil carbon 
sequestration is a land-saving option. We save the forestation 
to that.
    No. 4, the world soil has lost 60 to 80 billion tons of 
carbon. The U.S. soils have lost three to five billion tons of 
carbon. While we sequester that carbon, with or without climate 
change, the important thing is that we ensure global security 
by doing that. Therefore, climate change is not the only reason 
for soil carbon sequestration.
    Mr. Chairman, I thank you for the opportunity given to me 
in offering this testimony. I would be very glad to answer any 
questions that you may have. I would ask that my written 
statement be placed in the record in its entirety. Thank you.
    Senator Voinovich. Without objection, so ordered. Thank you 
very much, Dr. Lal.
    Mr. Bast?

  STATEMENT OF JOSEPH BAST, PRESIDENT, THE HEARTLAND INSTITUTE

    Mr. Bast. Thank you, Mr. Chairman, for inviting me to be 
here. Senator Carper, thank you for attending.
    The Heartland Institute, my organization, is a 19-year-old 
nonprofit research organization based in Chicago. The ``heart'' 
in Heartland is a geographical reference and not to the body's 
organ. It is a mistake often made.
    Senator Voinovich. Our State motto is, ``Ohio is the heart 
of it all.''
    [Laughter.]
    Mr. Bast. I think Kansas would disagree.
    [Laughter.)
    Mr. Bast. This is a joint research project by economists at 
the Heartland Institute, the Hudson Institute, and the American 
Farm Bureau Federation. The opinions I am about to express are 
my own and those of my coauthors.
    Carbon sequestration certainly appears at a distance to be 
an attractive alternative to mandating reductions in greenhouse 
gas emissions, especially since many experts believe that 
forcing utilities and other significant emitters to reduce 
their emissions would be very costly and would produce very few 
offsetting benefits.
    Upon closer inspection, carbon sequestration in agriculture 
faces some daunting problems of its own. I would like to 
comment on four such problems.
    First, paying farmers and livestock producers to sequester 
carbon would lead to heavy-handed and potentially ruinous 
regulation of farms and ranches. Farmers can indeed help store 
carbon in their crops and in their soil, but farming, 
especially dairy farming and cattle ranches, are also a 
significant source of greenhouse gases.
    According to the EPA in 2001, agricultural soil sequestered 
on net only 15.2 million tons of carbon dioxide equivalent, 
whereas agriculture as an industry released 526 million metric 
tons of carbon dioxide equivalent, 35 times as much. If you 
want to be paid to store carbon, you had better expect to be 
charged for admitting carbon as well. Farmers are going to be 
very vulnerable to any proposal to regulate their emissions.
    Second, endorsing sequestration may mean endorsing cap-and-
trade programs which, in turn, mean higher energy costs. 
Without a Government-imposed cap on greenhouse gas emissions, 
few emitters would need to buy the emission permits that 
farmers would earn by sequestering more carbon. But a cap-and-
trade program would have the same effect as higher energy 
taxes. Such a tax would have to be the equivalent of at least 
50 cents a gallon of gasoline or more in order to reduce 
emissions enough to make a difference.
    Higher energy prices, in turn, would dramatically reduce 
profits in the U.S. agricultural sector. Research that I 
conducted in 1998 with the American Farm Bureau estimated that 
a 50 cent per gallon tax on gasoline would reduce net profits 
for dairy farmers as much as 84 percent, and typically 50 
percent if gasoline taxes are raised by 50 cents per gallon.
    Total annual U.S. farm production expenses would increase 
by $20 billion. Since it is difficult for farmers to pass cost 
increases along to consumers, a cap-and-trade greenhouse gas 
program would cause a 48 percent decrease in net farm income. 
Following what Mr. Stallman said, the net impact on farmers of 
higher energy costs, which is part-and-parcel of proposals to 
reward farmers for sequestrating carbon, would be extremely 
negative.
    Third, environmentalists would be disappointed as well. 
Even if a carbon sequestration program benefited farmers, it 
would do very little to moderate greenhouse gas emissions. 
Agricultural soils in the U.S. today capture only 1/20th of 1 
percent of the total annual U.S. greenhouse gas emissions. This 
is according to EPA's latest assessment of greenhouse emissions 
and sinks for 1990-2001.
    Once saturation levels are reached, there would be no more 
gains on cropland with known farming systems, which means 
sequestration is not a long-term tool for reducing greenhouse 
gas emissions.
    Finally, my fourth point is that emissions trading is more 
problematic than its advocates admit. In thirty seconds I 
cannot describe all of those problems, but I should say that 
current programs for trading sulfur dioxide, for example, are 
not as robust and not as successful as many of their advocates 
would claim. They are characterized by very thin markets. Over 
80 percent of trades in sulfur dioxide, for example, are trades 
within companies, not between companies. Government 
overregulation kills innovation.
    There are examples in California where innovative programs 
to remove carbon have been killed by the emissions trading 
program under RECLAIM. Changing rules leave investors high-and-
dry, making a very risky sort of endeavor. There are 
verification problems and problems with Government changing the 
rules halfway through. As a result, farmers, especially, should 
be very wary about making investments in emissions trading.
    I conclude that carbon sequestration by farmers and 
ranchers in the United States may be a good thing for the 
farmers, and may be a good thing for the soil. Ultimately, 
though, it is a false hope for those seeking to be paid to do 
what they would do anyway. It is a false dream for 
environmentalists who see it as a major part of the solution to 
global warming. It is a poor strategy for an industry that 
should know better than to join a movement composed of groups 
and individuals who have been among its most strident critics.
    Thank you very much for allowing me to testify today. I 
would ask that my written statement be placed in the record in 
its entirety. Thank you.
    Senator Voinovich. Without objection, so ordered. Thank you 
very much, Mr. Bast.
    Ms. Reed?

   STATEMENT OF DEBBIE REED, LEGISLATIVE DIRECTOR, NATIONAL 
                      ENVIRONMENTAL TRUST

    Ms. Reed. Chairman Voinovich and Senator Carper, I am 
Debbie Reed. I am the Global Warming Campaign Director and 
Legislative Director at the national Environmental Trust. We 
are a nonprofit organization located in Washington, DC.
    I am pleased to have the opportunity to talk with you today 
about what I think is perhaps the greatest environmental issue 
confronting the world today, and that is global climate change.
    U.S. agriculture can make important cost-effective 
contributions to offset a portion of U.S. emissions of 
greenhouse gases in the near and medium-term. But it is not a 
panacea, nor is it a solution. Agriculture can provide a bridge 
to a less fossil-carbon intensive future while improving the 
sustainability, environmental quality, and profitability of a 
vital U.S. economic sector.
    Global warming is occurring. Evidence continues to 
accumulate that human activities and man-made greenhouse gases 
contribute to global climate change. Just last week the World 
Meteorological Organization issued an unprecedented alert 
indicating that record extremes in weather and climate events 
were continuing to occur around the world.
    The organization documented recent extreme weather events 
in several countries, including the United States. To prevent 
dangerous consequences from climate change, we must reduce our 
reliance on the burning of fossil energy sources. Mandatory 
credible policies to reduce greenhouse gases and emissions are 
needed, but will take time to implement.
    We should pursue with vigorous strategies, such as 
agricultural sequestration, to help offset greenhouse gas 
emissions in the interim. Global warming is a threat to 
agriculture. U.S. agriculture is a major industry. Farming 
contributed $80.6 billion, or .8 percent to the national gross 
domestic product in 2001. However, the threat of global warming 
and potentially severe weather events jeopardize the very 
livelihood of farmers in rural communities, as well as the 
ability of agriculture to continue to fuel U.S. prosperity.
    Catastrophic storm events, flooding, or drought can 
overwhelm not just individual farmers, but entire communities 
and regions. Agriculture and forestry do represent a net sink 
in the U.S., and helped to offset just over 7 percent of U.S. 
emissions in 1999. Policies to promote more widespread adoption 
of proven management practices to enhance this sink effect can 
boost this potential above current business-as-usual levels.
    Agricultural soils alone were about .6 percent of the total 
net sink in 1999 but scientists estimate that soils have the 
capacity to offset an additional 10 percent of U.S. emissions. 
Changes in tillage practices can result in net sequestration of 
CO<INF>2</INF>, reduce fossil fuel use, reduce nitrous oxide 
emissions from soils and fertilizers, improve water quality, 
and increase wildlife habitat.
    Simply put, soil carbon enhances agricultural 
sustainability. Fortunately, soil carbon is a component of soil 
that can be changed by management practices. Soil scientists 
estimate the potential for U.S. agricultural soils to sequester 
additional carbon at 187 million metric tons of carbon per 
year, or fully 10 percent of U.S. annual emissions.
    This capacity represents the upper potential for soils and 
will only occur if all croplands were immediately managed to 
maximize carbon intake. Carbon uptake could go on for a period 
of decades, but a saturation level would be reached. 
Agriculture can act as a Band-Aid, but it will not prevent 
climate change.
    Farmers experiences with no-till have confirmed the 
research. Some compelling stories from farmers who have 
converted to conservation tillage and no-till farming perhaps 
best provide a picture of the many benefits to society and 
farmers of this management practice. At a recent briefing on 
global warming and soil carbon sequestration, Elmon Richards of 
the Richards Farms in Circleville, Ohio, shared his 
experiences.
    Beginning in the 1970's, the Richards Farms began planting 
their 3,500 acres of corn and soybeans without tilling the 
soil. Among the benefits of no-till farming documented by the 
Richards Farms, are the need for fewer, smaller tractors, the 
need for fewer passes over their fields, reduced fuel use, 
reduced labor costs, and more free time.
    Specifically, the tractors the Richards use for 
conventional tillage consumed an average of three to four 
gallons of fuel per acre. No-till, with its reduced passes, 
consumes an average of .3 or .4 gallons of fuel per acre, or 
one-tenth the fuel use per acre.
    If we were to apply the Richards' figures on a national 
scale, we could begin to appreciate the potential impacts of 
just one aspect of this agricultural management change. If all 
farmers in the U.S. were to convert to no-till, the savings in 
fuel use could be as much as 744 million gallons of fuel 
annually. Since each gallon of fuel burn represents 6.1 pounds 
of carbon released to the atmosphere, this would reduce carbon 
emissions by approximately 2.1 million metric tons of carbon 
annually, which does not even account for the carbon which is 
also sequestered in the soil.
    Evidence from other farmers who have converted to no-till 
is just as compelling, showing, for instance, higher yields and 
thus, higher profits during drought years compared with their 
neighbors who are conventionally tilling, increased soil carbon 
content, significantly improved water infiltration and water 
holding capacity of the soils, reduced nitrogen fertilizer 
applications by up to 50 percent, which reduces the leaching of 
nitrogen in runoff, and reduced phosphorus runoff.
    In conclusion, credible policies to reduce net U.S. 
greenhouse gas emissions are needed to prevent the potential 
economic, social, and environmental consequences of unmitigated 
climate change. The agricultural sector is particularly 
vulnerable to global climate change and severe weather events, 
but with the right mix of policies and incentives to enhance 
its sink effect, agriculture can also help to mitigate the 
greenhouse effect by reducing U.S. greenhouse gas emissions.
    The enhanced sink effect of agriculture can be a win-win 
solution for this sector, for farmers, for society, and the 
environment, but it is not a panacea for greater action. 
Rather, it can be a useful and cost-effective bridge as we 
transition to a less fossil carbon intensive future.
    Thank you. I can answer any questions you might have. I 
would ask that my written statement be placed in the record in 
its entirety. Thank you.
    Senator Voinovich. Without objection, so ordered. Thank you 
very much, Ms. Reed.
    Dr. Rosenzweig?

 STATEMENT OF CYNTHIA ROSENZWEIG, RESEARCH SCIENTIST, GODDARD 
        INSTITUTE FOR SPACE STUDIES, COLUMBIA UNIVERSITY

    Ms. Rosenzweig. Mr. Chairman and Senator Carper, I am 
Cynthia Rosenzweig, a research scientist from the Goddard 
Institute for Space Studies at Columbia University.
    After nearly two decades of research on potential impacts 
of climate change on agriculture, attention is now turning to 
mitigation and adaptation responses. Mitigation actions, such 
as carbon sequestration in agricultural soils, are aimed at 
reducing the atmospheric concentration of CO<INF>2</INF> and 
other greenhouse gases, thereby countering climatic change.
    Adaptation actions, such as changes in crop types and 
management practices, are responses that optimize production 
under changing climate conditions. Here, I analyzed these 
response actions and suggest that it is both useful and 
necessary for them to be considered jointly.
    A review of a combination of approaches, including field 
experiments, regression analyses, and modeling studies leads to 
the following conclusions regarding how a changing climate may 
influence agriculture, and how mitigation and adaptation 
responses may interact.
    First, agricultural regions will experience change over 
time under a changing climate. Some regions will experience 
increases in production and some declines due to the presence 
of minimum and maximum thresholds for crop growth. Adaptation, 
such as adjustments in planting dates, crop types, and 
irrigation regimes will likely be required. Geographic shifts 
in crop growing areas are likely to occur with associated 
changes in production systems.
    Although climate influence changes in agriculture are 
likely in the coming decades, the magnitudes and rates of these 
changes are uncertain at the regional scale.
    Despite these general uncertainties, agricultural 
production in developing countries is more vulnerable. Studies 
have consistently shown that overall production in mid and high 
latitudes is likely to benefit in the near term, approximately 
to mid-century, with increasing CO<INF>2</INF> and warming, 
while production systems in the low latitudes are likely to 
decline. This finding has implications for world food security 
since most developing countries are located in lower latitude 
regions.
    Third, long-term effects on all agricultural regions are 
negative. If climate change effects are not abated, 
agricultural production in the mid and high latitudes, even 
here in the United States, is likely to decline in the long 
term. This is a long-term problem for the end of this century. 
These results are due primarily to the detrimental effects of 
heat and water stress on crop growth as temperatures rise. 
Increased climate variability, such as droughts and floods, 
under climate change, is also likely to negatively affect 
agriculture.
    I turn now to solutions and responses to climate change. A 
changing climate will affect mitigation potential. Responses to 
a changing climate will contribute to determining which 
mitigation techniques are successful and at what levels over 
the coming decades. Because some carbon sequestration projects 
have long durations on the order of 40 to 50 years in temperate 
regions--farmers may need to consider which sequestration 
techniques have the better chance to succeed under changing 
climate regimens.
    If changing climate is not taken into consideration, 
calculations of carbon, in terms of how much carbon can be 
sequestered, may be in error.
    It is important to know that mitigation and adaptation 
responses are synergistic. Mitigation practices can also 
enhance the adaptation of agricultural systems. For example, 
carbon sequestration in agricultural soils lead to more stable 
soil-water dynamics, enhancing the ability of crops to 
withstand droughts and flood, both of which may increase under 
changing climate conditions.
    Finally, a new way to look at the issue of mitigation and 
carbon sequestration in agriculture is to consider that 
mitigation practices may help to make the U.S. sector carbon 
neutral. The combination of management techniques, reduced no-
till, modified irrigation and fertilization application has the 
potential to sequester, by our calculations, about 50 million 
tons of carbon yearly. These approximately match greenhouse gas 
emissions from the U.S. agricultural sector.
    However, we need to recall the caveat that the capacity for 
agricultural soil carbon sequestration is constrained by the 
amount of carbon previously lost during conversion for 
agriculture so that its effectiveness as a mitigating activity 
for climate change is not unlimited. In this way, the U.S. 
agricultural sector could take the lead as a key sector in our 
Nation to address the significant issue of climate change.
    In conclusion, our research suggests that planning and 
implementation of mitigation and adaptation measures in 
response to the global climate change issue should be 
coordinated, and proceed hand-in-hand. Investments in programs 
and research will be needed to assure effectiveness in both 
adaptation and mitigation activities for U.S. agriculture.
    Thank you. I would ask that my written statement be placed 
in the record in its entirety. Thank you.
    Senator Voinovich. Without objection, so ordered. Thank you 
very much, Dr. Rosenzweig.
    This has been very interesting testimony. Obviously there 
have been different perspectives presented on carbon 
sequestration in terms of its effectiveness and maybe it is not 
as effective as we think it would be.
    What I would like to do with my portion of the questioning 
is to allow each one of you to have an opportunity to comment 
for the record on what someone else has said.
    Dr. Lal?
    Mr. Lal. Maybe I can begin with my colleague, Mr. Bast. He 
gave some numbers which obviously are different than my 
numbers. As a professor, I have a habit of finding out where 
the mistake is when two students give different numbers.
    He is giving carbon emission numbers as carbon dioxide gas 
equivalent, CO<INF>2</INF>, and he is giving carbon 
sequestration numbers as carbon equivalent. For example, the 
EPA report which he quoted, talks about 6,952 million metric 
tons of carbon dioxide equivalent as total emissions annually.
    If you can work that to carbon equivalent where all the 
sequestration data is, that is approximately one-fourth of the 
total number. So, 6,952 million metric tons of carbon dioxide 
converts to 1,892 million metric tons of carbon.
    His quotation on carbon sequestration in soil of 15 million 
metric tons is almost right. It is about 20. But his conversion 
that it was one-fiftieth of that, he was taking CO<INF>2</INF>. 
That is the discrepancy and I would like to correct that.
    Mr. Bast. May I respond to that?
    Senator Voinovich. Mr. Bast?
    Mr. Bast. I thought this might become an issue of some 
contention so I brought with me EPA's report on greenhouse gas 
emissions and sinks. The table here in carbon dioxide 
equivalents--not carbon, but carbon dioxide equivalents--is net 
sequestration from agriculture of 15.2 million metric tons, 
only 15.2.
    Total emissions from agriculture, according to the same 
report, was 526 million metric tons carbon dioxide equivalent. 
This is an apples-to-apples comparison, and not apples-to-
oranges. The total emissions from agriculture, including 
methane, are 35 times what is currently net being sequestered 
on agricultural soil.
    Where I do not disagree with my distinguished colleague 
here is in the area of forestry and perhaps overall 
sequestration. I think there are tremendous opportunities in 
forestry to sequester more carbon, but I would worry if we 
subsidize tree planting that what we do is reduce U.S. 
agricultural production, and encourage Third World countries to 
clear forests in order to create more food. So you get what 
economists call a leakage effect, where for every acre you 
reforest cropland or grazing land in the United States, you 
might end up with two acres, or even five acres, being cleared 
for low productivity agricultural growth in a Third World 
country. I do not know that that would be an effective 
alternative, either.
    Senator Voinovich. Any other comments?
    Mr. Stallman?
    Mr. Stallman. I would just have a little clarification. 
This is not ``Pick on Joe Bast Day.'' But the Heartland study 
that he referenced, we did participate in. I think many of the 
comments that Mr. Bast made with respect to mandatory cap-and-
trade systems, we would agree with. We do not think that is a 
good route to go.
    However, we do support the voluntary system and the 
incentives as proposed under the President's plan for 
agriculture to play a greater role in carbon sequestration. I 
think we can do that.
    The larger questions of how long can that role last before 
you are saturated, and what net benefit that would be long 
term, that goes beyond the scope of where we are right now. We 
are looking at what can we do in the short-term, in terms of a 
voluntary incentive-based plan to help with the issue of carbon 
sequestration.
    Senator Voinovich. Any other comments?
    I thought that would be a little more lively.
    [Laughter.]
    Senator Voinovich. The thing that strikes me is that 
whatever we do here, we have to take into consideration what is 
happening over there. In other words, this is a world problem 
that we have. We are really focusing in on just what 
contribution we are making here in the United States to the 
solution to it.
    Would anyone like to comment on that?
    Mr. Bast?
    Mr. Bast. I perhaps already have, but I absolutely agree 
with you. I think we need to be looking at this as a world 
problem and at net and life cycle emissions rather than short-
term sorts of projects. It is very easy for an utility, or for 
a manufacturer, or for a farmer to be able to point to a 
project that reduces greenhouse gas emissions. You simply stop 
producing something, or you outsource the production of it. 
Instead of producing electricity at your plant, you simply 
start buying electricity.
    On paper it looks like there is a reduction in emissions. 
In fact, all you have done is shifted the emission to some 
other source, either in another business nearby, in another 
State, or in another country.
    Because the United States has the most productive 
agriculture in the word, anytime we discourage farming in the 
United States, we end up encouraging deforestation in other 
parts of the country. I do not think that that is a healthy 
prospect. So, even a voluntary program, as much as I respect 
the American Farm Bureau's distinction between voluntary and 
mandatory programs, I would worry that a voluntary program sets 
the stage for a mandatory program.
    In order for those emission permits to be worth anything, 
there has to be a mandatory cap on emissions. That takes us 
down the path to imposing restrictions on agriculture and 
industry in the United States, with the consequence that a lot 
of this moves to other countries where the environmental impact 
is many times worse.
    Senator Voinovich. I would just to comment on that. One of 
the things that is really boiling in my State is the 
importation of products from China and how they are displacing 
our manufacturing sector. Two millions jobs have been lost in 
the last 2 years.
    All of a sudden it struck me that what tradeoffs are we 
having in regard to the environment. They are impacting on our 
manufacturing sector, but the question is how much are they 
contributing to the climate change and some of the other 
pollution problems that we have. I do not think we have even 
thought about that or have investigated it.
    There are so many parts to this. You keep turning it, and 
you see something else that is there that needs to be taken 
into consideration. At the same time I think all of us feel 
that regardless of what the facts are, we ought to be doing 
everything that we possibly can to reduce greenhouse gas 
emissions.
    Senator Carper?
    Senator Carper. Thank you, Mr. Chairman. To all of our 
witnesses, thank you for coming here and for casting some light 
on what we all agree is an important subject.
    Mr. Stallman from Columbus, Texas, Dr. Lal from Columbus, 
Ohio. I am an old Buckeye myself. The two of us are both 
Buckeyes, Ohio State graduates. We are really pleased to 
welcome you.
    I used to live in Texas myself when I was a Naval flight 
officer, down near Flower Bluff, which most people have never 
heard of. It is nice to have a Texan here at the table. We 
welcome all of you for coming.
    Rob Baker is our Farm Bureau president in Delaware. His 
predecessor is Joe Calhoun. Before that was Jack Tarnburn. Jack 
Tarnburn was my Secretary of Agriculture for the 8 years I was 
privileged to be Governor of Delaware.
    We have worked on a commodity problem in Delaware. It is 
also a pollution problem. We raise a lot of chickens in 
Delaware. Most people do not think of Delaware as much of an 
agricultural State.
    I think we raise more chickens in Sussex County, Delaware, 
which is where we have a lot of beach resorts--Fenwick Island, 
Bethany Beach, Rehoboth Beach, Dewey Beach, Cape Henlopen. Most 
people probably think of Sussex County as a place to go on 
vacation. It is a great place for that. But we also raise more 
chickens in Sussex County, Delaware, than in any county in 
America. I think we raise more soybeans in Sussex County, 
Delaware than any county in America.
    All those chickens create a fair amount of waste. In our 
State what we have historically done is that we have taken the 
chicken waste and after it has been cleaned out of the chicken 
houses, we use it to fertilize our fields. Over the years we 
have had more and more chickens to come along, and more and 
more waste, and fewer acres over which they are spread. As a 
result, there is a lot of phosphorous and nitrogen in our 
waterways that eventually gets into our inland bays and even to 
the Chesapeake and Delaware Bay.
    One of the things that we have done is that we have a real 
interesting partnership between the State of Delaware and 
Perdue which raises a lot of broilers. We have created, with 
their good work, a technology that enables us to take chicken 
litter through a treatment process. We create a product high in 
nitrogen and high in phosphorous that can be used as a 
fertilizer. It is shipped all over the world. It can be shipped 
to the Midwest. The size of the pellets can be used and used 
for lawns. It can be used for golf courses and so forth.
    The idea there is to take what had been a problem polluting 
our waterways and to try to transform it into a marketable 
commodity for our farmers. We have only been doing this now for 
about 2 years, but I am encouraged that we are getting our sea 
legs and that it is going to be a successful proposition for 
Perdue and for poultry growers, and for our farmers as well.
    I am always looking at ways to help raise commodity prices 
for farmers and to reduce the amount of subsidies that are paid 
to farmers. I want to find a way to provide another source of 
cash for our farmers, whether they are in Delaware, Texas, or 
any other State.
    Talk with me a little bit about the potential for us 
helping increase commodity prices and provide another commodity 
source of cash for our farmers through a system that enables 
the emitter of CO<INF>2</INF> to enter into a contract with 
farmers or those who aggregate on behalf of farmers. Talk with 
me about the potential of what they can mean for our farmers?
    Mr. Stallman. Well, the potential would obviously vary 
across the country, depending on the type of land, the type of 
crops, and those kinds of things. We are encouraged by some of 
the private efforts that I mentioned in my testimony to put 
farmers in touch with entities that need to do this. TVA, I 
think, was doing some reforestation. There were some farmers 
involved in that at one point.
    Throughout all this discussion about the long-term effects 
of carbon on the atmosphere and some of the projections, I 
think what is missing--and you cannot quantify it--is what will 
technology do. The example you have laid out as to what Perdue 
and some of the poultry farmers are doing in Delaware, is one 
example of many.
    But I truly believe that technology, through additional 
research, will allow us ways of handling a lot of these 
problems, whether it is waste, better incorporation practices, 
and sequestration of carbon. As long as the systems that are in 
place, in terms of providing farmers some additional dollars--
and all of us are in favor of that happening--are voluntary 
incentive-based and done through a market approach, we would 
support that.
    It will take awhile before the research and the technology, 
to quantify what ``x'' practice will mean in terms of ``y'' 
benefit that you can actually get paid for. Those are some of 
the hurdles that we have to overcome if we are going to put 
forth a successful system.
    But I think the potential is there to do that. The question 
is: Can we get the extra research and the dollars associated 
there to quantify those things better? Can we have private 
entities, aggregators, like some of our State farm bureaus, in 
terms of getting groups of farmers together, and selling those 
credits to some industry?
    I think all that potential is there. But it is going to 
take some work to get there.
    Senator Carper. Ms. Reed, would you mind responding to the 
same question? Let me know what that potential might be.
    Ms. Reed. I think there is a great potential. I would like 
to give you one example of a situation in the Pacific Northwest 
where an energy company called Entergy, has entered into a 3-
year contract with a group of farms to purchase carbon from 
them. Entergy feels that climate change is a risk that we need 
to deal with. They want to reduce their emissions of greenhouse 
gas.
    They have purchased, over a 3-year period, carbon from a 
group called the Pacific Northwest Direct Seed Association. 
They are a no-till and conservation tillage group. As Carl 
Cooper, of the Pacific Northwest Direct Seed Association would 
tell you, the check is not in the mail. It is in the bank. They 
have been paid for the carbon that they have sequestered. There 
are, in fact, emerging carbon markets that are operating in 
this country. Agriculture has often been looked at as a source 
of low cost offsets. Energy companies are, in fact, talking 
with groups like the Pacific Northwest Direct Seed Association 
about doing that. So I think it is not only a possibility, it 
is a reality.
    Senator Carper. All right. Thank you.
    Dr. Lal, let me go back. I think you are the member of the 
panel who talked about the amount of carbon that is being 
emitted and how much could reasonably be sequestered or drawn 
into, whether it is forest or agriculture or the oceans.
    Could you just go back and review some of those numbers for 
me, please?
    Mr. Lal. We have the potentials. That is not what is 
actually happening. The potential for the U.S. cropland--and 
Ms. Reed gave that number also--is 142 million tons a year. The 
potential of our U.S. grazing lands is 70 million tons a year. 
The potential for forest lands is 118 million tons a year. For 
all three categories of land, you have the potential for U.S. 
soils of 360 million tons, which I calculate at about one 
million tons per day. That is in the soil only.
    In addition to that, the potential forest biomass carbon is 
250 million tons. The total comes to about 600 million tons, 
which is about one-third of the total emissions, which is about 
1,900 million tons.
    Senator Carper. The best case, if we were to use all of the 
avenues you have just described, we might be able to address 
about a third of our current CO<INF>2</INF> emissions?
    Mr. Lal. That is correct, sir.
    Senator Carper. Mr. Chairman, that is pretty encouraging. I 
do not pretend to believe that we could maximize the potential 
in all those areas, but that is a pretty good potential.
    Mr. Lal. I would also mention that on a global scale, as 
Senator Voinovich mentioned, the potential is about one billion 
tons a year in soils. That is more difficult because of the 
developing countries in Africa and Asia may not be able to do 
what we can do in the United States. The potential is 
tremendous, especially because the full security in Africa is 
linked to that carbon sequestration.
    Senator Carper. Dr. Rosenzweig, I want to ask a question of 
you. I like the question that our Chairman asked of the panel. 
He asked if you wanted to comment on any of the testimony of 
any other witnesses. One of the great things about having a 
panel like this is that we have really diverse perspectives. I 
always look for a common ground. What we have to do is to try 
to figure out what the consensus is, what the middle ground is, 
and to propose that to our colleagues.
    As you listened to the testimony here today of each of our 
other witnesses, what were some of the elements of commonality 
that you heard that you think might help us in producing 
consensus legislation, that addresses CO<INF>2</INF>, 
greenhouse gases, and global warming?
    Ms. Rosenzweig. I do not think I can say that there is 
complete common ground. But there is a strong opinion across 
the panel that encouraging carbon sequestration in the 
agricultural sector is a beneficial thing to do for a number of 
reasons.
    The idea of the win-win situation, I think, is very 
powerful. It will benefit crop productivity and soil-water 
runoff erosion by increasing carbon in our soils. And, at the 
same time, it will work on the larger uncertain, but still 
looming issue of global warming.
    When I look across the testimony, that is what I see. I 
think clearly we need more research on carbon sequestration 
potential, because we have heard various estimates presented 
here. The estimates are dependent on changing climate 
conditions--dynamic climate conditions. Most of the 
calculations that have been presented here do not take the 
potential for a changing climate into account. I believe that 
they should.
    We should also look to the warming that has already 
occurred over the past 100 years. The global temperature has 
risen 0.6 degrees Centigrade, about 1 degree Fahrenheit. 
Because of the greenhouse gases that we have put into the 
atmosphere already, there is likely to be a continuing 
potential for a change. I think those are important things that 
we need to take into account as we go forward.
    Senator Carper. Thank you.
    Mr. Chairman, I would ask unanimous consent that three 
items be included in the record. One was actually alluded to, I 
think, by Ms. Reed.
    It says, ``Statement from the World Meteorological 
Organization.'' They forecast weather around our planet. They 
apparently met last week and said, as Ms. Reed mentioned in her 
testimony, that the number of severe weather events are likely 
to increase due to climate change. That would be one request.
    The National Farmers Union is not present with us today. 
They have a statement that I would ask be submitted. They 
encourage efforts to establish a strong CO<INF>2</INF> 
reduction strategy, and to include agriculture in that 
strategy.
    There is a statement of a group of leading climate 
scientists who have researched weather data. They determined 
that the warmth experienced in the late 20th century was an 
anomaly, and that human activity likely played an important 
role in causing that warming.
    Those would be the three that I would ask unanimous consent 
to place in the record.
    Senator Voinovich. Without objection, so ordered.
    [The statement appears at the end of the following the 
hearing record:]
    Senator Voinovich. I am getting a little bit confused here 
with these numbers. The estimate of the incentives just 
announced by the USDA show that if widely used, they will 
sequester 12 million metric tons of carbon in 2012. Did we just 
say that right now we are sequestering 15 million tons 
currently; is that right?
    Dr. Lal?
    Mr. Lal. My guess is that that is not 12 million. That is 
12 percent of the emissions. I think that was probably 12 
percent and not 12 million. That is my interpretation on that. 
We are already sequestering 20 million tons, not 15. That is in 
soils alone. So 12 million tons sequestered by 2012 is grossly 
inaccurate. I think it is 12 percent of the emissions.
    Senator Voinovich. Mr. Bast?
    Mr. Bast. I believe he was referring to the sequestration 
of specific programs that the Department of Agriculture was 
planning to fund rather than making a forecast of how much 
could be sequestered. That is why it is a seemingly small 
amount.
    Concerning this confusion between tons of carbon and carbon 
dioxide, carbon is 12/44 of the weight of carbon dioxide. So 
you can convert one into the other by multiplying it by either 
12/44ths or 44 12ths, which is 3.66666.
    We can take the estimates that Dr. Lal has been giving us, 
multiply it by 3.66, and you will get what the United Nations 
and the EPA both now use as the standard method of measuring. 
EPA, when it uses tons of carbon dioxide equivalent, comes up 
with 15 million metric tons. That is not carbon. That is 
actually the higher of the two numbers. If you express it only 
as tons of carbon, it would be even less than that.
    The 20 million tons that other people have used here is the 
Department of Agriculture's estimate. That is just tons of 
carbon. If you convert that into carbon dioxide, it is about 73 
million metric tons.
    EPA says 15 million metric tons. The Department of 
Agriculture says 73 million metric tons. If EPA is right, it is 
about 1/20th of 1 percent of total U.S. greenhouse gas 
emissions every year, just 1/20th of 1 percent. If the 
Department of Agriculture is right, it is still just about 1 
percent--73 million metric tons is about 1 percent of 6.9 
billion metric tons, which is what EPA estimates total U.S. 
emissions to be.
    Total sequestration, regardless of whose number we are 
using, currently is very small--one percent at best, 1/20th of 
1 percent if EPA is correct--of current U.S. emissions. How 
much and how rapidly that could be increased has been the 
subject of speculation on this panel. I am certainly not a soil 
specialist, but EPA notes that total sequestration has only 
increased 14 percent over the last 11 years. From 1990 to 2001, 
the amount of carbon stored in soil has only increased 14 
percent.
    Now we are proposing perhaps to very rapidly increase it by 
100 percent or 1,000 percent in order to get up to some of the 
numbers that other speakers are talking about. I would doubt 
that that is feasible.
    Senator Voinovich. I will check this out. I thought they 
said they were talking about 12 million metric tons of carbon 
in 2012.
    Ms. Rosenzweig?
    Ms. Rosenzweig. I just have a comment further to the point 
that I was making about thinking about agriculture as a carbon 
neutral sector, and thinking about other sectors as well.
    From sitting on many panels over about the 20 years that I 
have been doing research on climate change and agriculture, one 
thing that I have come to learn is that there are no silver 
bullets for the global warming issue. Really, there is only 
silver buckshot. When you look at the sector, compared to the 
whole problem, yes, it could be small. But it can play a very 
important role by beginning the address the issue and doing 
what it can, vis-a-vis its own sector and also helping out the 
other sectors.
    Senator Voinovich. Dr. Lal?
    Mr. Lal. Senator, your point about the numbers being 
confusing, like the estimates by UDSA on soil carbon 
sequestration of 20 million tons, are based on sensory model 
use. We really do not have actual measurements on farm 
conditions. Most of the data that we have presented is based on 
the research.
    What really is needed is validation of which farmers have 
adopted practices in different regions in the United States, 
actually going out there and monitoring how the carbon is 
changing. That data is just being collected. That is the kind 
of information that is really needed to verify what is actually 
happening.
    Senator Voinovich. You are saying that we still are not 
there to really get the real numbers of what is really being 
captured and that there is speculation on these numbers?
    Mr. Lal. Yes, Senator.
    Senator Voinovich. I know we throw numbers around here and 
I always ask: Where do they come from: You peel it back. A lot 
of it is speculation. We are still in a speculative arena in 
terms of what this is really going to do?
    Mr. Lal. That is very correct. The actual on-farm 
assessment of soil carbon sequestration numbers and the on-farm 
conditions are few. Some are being collected. I think Jack is 
collecting some. We are collecting some. But it is very few. We 
have only a few farms.
    The other point that I want to mention is the 20 million 
tons that the USDA uses is net sequestration by soil. When I 
say ``net,'' there is a lot of emission by cultivation by 
organic soils. These are cultivated organic soils, like sugar 
cane plantations in Hawaii, and some vegetable production in 
some parts of Ohio. We have very serious emissions from those 
soils which is really quite a large number. When you calculate 
the net part of the soil carbon sequestration happening, we 
deduct that the emissions from the organic soils. So the net 
number given is not really the net number. The soil carbon 
sequestration number is much bigger.
    The other point which I think is important to mention is 
that soil carbon sequestration, carbon offsetting is only one 
of the benefits. Improving the quality of our soil resources is 
a very important factor.
    Senator Voinovich. I think that Mr. Stallman would agree 
with this, that going forward with this program has other 
benefits to the agriculture community, correct?
    Mr. Lal. Yes, sir, to the environmental community as well--
sedimentation control, the water quality benefits, the bio-
diversity benefits, and the pollutants use of land. There are 
numerous other things.
    Soil organic matter is what makes the soil a living entity. 
We have lost three to five billion tons of carbon from the soil 
in the U.S. We need to put it back, regardless of the debate of 
climate change. We have lost 60 to 80 billion tons of carbon 
from the world's soils. Why the full security situation 
perpetuates in Africa? We are talking about a 30 percent loss 
in the U.S. They are talking about a 90 percent loss in the 
soil in Africa. We need to put it back before even those soils 
can respond to fertilizer use. We cannot possibly achieve the 
full security without restoring the soil carbon. The benefits 
are tremendous.
    Senator Voinovich. Thank you.
    Mr. Stallman, Mr. Bast testified that mandatory carbon 
controls could increase gasoline costs by 50 percent, driving 
up agri-production costs. There is a big issue around here 
about cap-and-trade. I am opposed to cap-and-trade. I think we 
should go ahead and move forward and do what we can without 
cap-and-trade. There are others that say that if you do not 
have cap-and-trade, then you are not going to get people to do 
some of these things that we are talking about here today. It 
is a dilemma.
    Frankly, it is standing in the way of moving forward with 
reducing NOx, SOx, and mercury. There are certain groups in 
this country who say unless you do four of them, we are not 
going to do anything about the other three. We have been 
coasting around here in the last 2 or 3 years.
    Would you like to comment on the cap-and-trade thing? Do 
you agree with that in terms of the impact that it will have on 
agriculture? You are going to get involved in sequestration, 
but you are saying if you get into this cap-and-trade, the cap-
and-trade will impact negatively on farmers in this country and 
drive up their costs; is that correct?
    Mr. Stallman. Yes, we strongly believe that any kind of 
mandatory cap-and-trade system would be a net detriment in 
terms of the economic impact to agriculture.
    Senator Voinovich. Let me ask you another thing. In your 
opinion, would it put us in a noncompetitive position in the 
global market place?
    Mr. Stallman. Certainly less competitive, and probably 
noncompetitive in many instances. If we implemented some Kyoto-
like mandatory greenhouse gas regulations, the Sparks study 
indicates that it would lower net farm income by over $21 
billion a year. Production costs would increase about $16 
billion, due to the higher energy and fertilizer costs. 
Agriculture is a very intensive energy user.
    Senator Voinovich. Part of that comes from that if you do 
cap-and-trade, the concept is that the energy companies would 
stop burning coal. They use more natural gas. More natural gas 
equals higher costs for fertilizer. That is the scenario.
    Mr. Stallman. A lot of that is in the Sparks study that I 
referenced. We will be glad to get a copy of it to you.
    Senator Voinovich. OK. I would like to get that Sparks 
study.
    Mr. Stallman. We will provide it, Mr. Chairman.
    Without objection, so ordered.
    Senator Voinovich. Senator Carper?
    Senator Carper. Thank you, Mr. Chairman.
    I have two last questions.
    Ms. Reed, I think in an earlier life you worked for Senator 
Bob Kerry; is that true?
    Ms. Reed. Yes, I did.
    Senator Carper. Subsequent to that, I think maybe you had a 
stint at EPA. You had to think, by virtue of some of your 
former jobs, about what we and our staffs go through in 
crafting legislation and looking for some compromises.
    Let me just ask this, if I could. What should the 
Administration, and what should Senator Voinovich and I and our 
colleagues do to more effectively address climate change, 
including promoting carbon sequestration. What should we do?
    Ms. Reed. I do not think, first of all, that we should 
discount the idea of a cap-and-trade program. Senators McCain 
and Lieberman have a bill called the ``Climate Stewardship 
Act,'' which is a cap-and-trade program. It would impact just 
the major and most intensive emitting sectors of the economy.
    MIT recently completed an analysis of that bill that 
showed, for instance, the two phases to the bill. The first 
phase of the bill would decrease U.S. greenhouse gas emissions 
to 2000 levels by 2010. It would have no net impact and no cost 
to the economy. It might even be beneficial to the economy.
    The reason is that it is set up as a cap-and-trade program 
that allows market flexibility to take over. It would allow, 
for instance, agricultural sequestration to be a low cost 
source of offsets, and other sources of sequestration. So I 
think you need to think about using the market to actually help 
us get the lowest price reductions where we can. Your bill, as 
a matter of fact, does the same thing.
    So I think that there are ways to do this. We need to 
overcome the obstacles that people throw up that have not been 
proven. Certainly, there is a sulfur dioxide trading program, 
for instance. It has shown that we can, in fact, reduce 
emissions of pollutants using the market.
    Senator Carper. All right.
    Does anyone have a closing thought that you would have for 
us coming out of the hearing of hearing your colleagues on the 
panel? Do you have a closing thought for us that you might 
have?
    Mr. Stallman, are there any parting thoughts you might want 
to leave with us?
    Mr. Stallman. Well, in terms of the silver buckshot, 
agriculture is willing to be one of the BBs.
    Senator Carper. Good. Thank you. Hopefully we will find 
some more.
    Dr. Lal, I might just say that this issue of global warming 
and greenhouse gases first came to my attention thanks to a 
research couple from Ohio State University, Drs. Thompson, who 
have done a lot of work around the globe. Maybe sometime we 
could actually have them come and testify and talk about the 
work that they have done on examining the melting of the ice 
caps around some of the tallest mountains in the world.
    Mr. Lal. He predicts that some of the tropical glaciers, 
like Kilimanjaro, might disappear within the next 15 to 20 
years because of the climate.
    Senator Carper. It is sobering stuff.
    Mr. Lal. I would like to mention that agriculture has been 
considered as an environmental pollutant. I think agriculture, 
in addition to providing full security, can really be a 
solution, if done properly.
    Senator Carper. That is a great thought to close with. 
Thank you.
    Mr. Bast?
    Mr. Bast. Mr. Stallman at the outset said that we are not 
here to debate the science, but I note now that it has come up 
on several occasions. I cannot hardly leave this hearing 
without mentioning that the satellite data show no warming over 
the last 29 years, and that there is indeed a fierce debate 
taking place among scientists as to whether or not there is any 
human role in the temperature trends that we have observed.
    Finally, there is a lot of debate over whether or not some 
global warming would have a negative effect either on the 
United States or the rest of the world. The most authoritative 
research on that by Robert Mendelson at Yale University, 
recently published by Oxford Press, suggests that a 2.5 degree 
Celsius warming would actually benefit agriculture in the 
United States to the tune of $41 billion a year through its 
fertilizing effect and through more rain and other things like 
that.
    We should not assume that we have a problem here in need of 
solving. I think that would be the first step. Secondarily, if 
we try to solve this nonexistent problem, let us make sure the 
unintended consequences do not make it even worse by leading to 
deforestation and other problems in Third World countries.
    Senator Carper. Thank you. A friend of mine likes to say, 
in response to those kind of arguments, if we can get the 
temperature up high enough, we can eliminate all the 
agricultural subsidies for the farm community. But that is his 
sense of humor.
    Ms. Reed?
    Ms. Reed. I commend you for dealing with the issue of 
climate change. I do think it is time for us to start taking 
action. I think we can do so in a way that is not prohibitive, 
either to the economy or to the agricultural sector. Most 
farmers operate on a three-to-four percent profit margin. 
Agriculture can clearly benefit from starting to help mitigate 
our greenhouse gas emissions.
    Senator Carper. Thank you.
    Ms. Rosenzweig?
    Ms. Rosenzweig. I am actually a coauthor on a chapter in 
the book that Mr. Bast mentioned. I think it is important to 
remember that unabated temperatures are likely to continue to 
rise even above 2.5 degrees Centigrade. That is why it is so 
important that we address both mitigation of greenhouse gas 
emissions and adaptation to a changing climate, a dynamic 
climate, jointly.
    Senator Carper. Thank you all.
    Thank you, Mr. Chairman.
    Senator Voinovich. I would just like to make one point. I 
am anticipating the McCain-Lieberman bill. According to the 
energy information from the Administration, it will increase 
electricity costs, natural gas costs, and have a major impact 
on all aspects of the economy.
    So there is a difference of opinion, Ms. Reed, about what 
that bill will do or not do. I just wanted to get that on the 
record.
    Thank you very much.
    We are adjourned.
    [Whereupon, at 11:35 a.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]

  Statement of Bruce I. Knight, Chief, Natural Resources Conservation 
                Service, U.S. Department of Agriculture

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to discuss the Department of Agriculture's carbon 
sequestration programs and outline the steps being taken within USDA to 
address the long-term challenge of global climate change. The issue of 
climate change cuts broadly across the Department, involving several 
agencies and mission areas. To provide policy guidance, the Secretary 
created a climate change working group that is chaired by the Deputy 
Secretary and includes the Under Secretaries for all of the relevant 
mission areas: Farm and Foreign Agricultural Service; Natural Resources 
and the Environment; Research, Education, and Economics; and Rural 
Development, as well as the General Counsel and Chief Economist. The 
Department plays an active role in the government's activities to 
address climate change, including: Scientific research, technology 
development, international bilateral and multilateral cooperation, 
efforts to encourage actions in the private sector, and policy 
development and implementation.
    Last month, Secretary Veneman announced a series of actions that 
the Department will take to increase carbon sequestration and reduce 
greenhouse gas emissions from forests and agriculture. The actions 
represent a major step for the Department. For the first time, USDA 
will consider the reduction of greenhouse gases in setting priorities 
and in allocating resources within the portfolio of conservation 
programs we administer. The actions build on a foundation of ongoing 
research and technology development. USDA researchers and our 
cooperators are improving our understanding of climate change and its 
implications for managed and unmanaged natural systems, the potential 
risks to agriculture and forests, and effective ways to sequester 
carbon and reduce greenhouse gas emissions from agriculture and 
forests.
    The actions announced by USDA include financial incentives, 
technical assistance, demonstrations, pilot programs, education, and 
capacity building. We are also setting out to improve our ability to 
measure and monitor changes in carbon storage and greenhouse gas 
emissions so that we can accurately track our progress in implementing 
these actions.
    Coupled with the increases in overall conservation spending, these 
actions are expected to increase the carbon sequestration and 
greenhouse gas emissions reductions from the conservation programs by 
over 12 million tons of carbon equivalent in 2012, which represents 
approximately 12 percent of President Bush's goal to reduce greenhouse 
gas intensity of the American economy by 18 percent in the next decade.
    USDA's conservation programs were designed to offer assistance and 
incentives to farmers and other landowners in addressing multiple 
conservation and environmental challenges. Historically, programs have 
focused on reducing soil erosion, improving water quality, creating 
wildlife habitat, reducing air pollution, and protecting sensitive 
areas. While maintaining these priorities, the programs will now also 
include explicit consideration of greenhouse gas reductions and carbon 
sequestration. We can accomplish this without compromising our other 
objectives because, in many cases, the technologies and practices that 
reduce greenhouse gas emissions and increase carbon sequestration also 
address other conservation priorities. Planting trees and other natural 
covers can increase above and below-ground carbon. However, cropland 
doest not need to be taken out of production to sequester carbon. For 
example, conservation tillage (reduced, minimum, or no-till) reduces 
the extent of soil organic matter oxidation and decomposition by soil 
microorganisms that occur with plowing and tillage. Thus, more of the 
organic matter added to the soil remains, leading to increases in soil 
carbon.
    There are many opportunities to apply these practices in the U.S. 
Most U.S. cropland soils have lost at least a third and some up to 60 
percent of their carbon since they were first converted to crop 
production beginning about 200 years ago. This diminished carbon pool 
can be replenished by improvements in land management.
    Under the Environmental Quality Incentives Program (EQIP), NRCS 
provided guidance to States to reward actions that sequester carbon and 
reduce greenhouse gases within the EQIP ranking system. These practices 
can include the soil conservation practices already mentioned and 
technologies to reduce methane emissions from livestock waste. Last 
month, we hosted a Summit on one of these promising technologies 
anaerobic digesters. Anaerobic digesters can reduce odors and pathogens 
and methane (a powerful greenhouse gas) from manure. The methane from 
digesters can be captured and used as fuel for power generation or 
direct heating. The Summit, held in Raleigh, North Carolina brought 
together farmers, Federal and State conservation officials, 
representatives from the power industry, inventors and technology 
developers, and the conservation and environmental organization 
representatives.
    At the summit, we unveiled three new conservation practice 
standards specifically for digesters. The performance standards lay out 
standard expectations for the technology but do not prescribe or 
endorse a particular vendor's product. One of the standards is for 
covers for new and existing lagoons; the second standard is for new 
ambient temperature digesters; and the third standard is for new 
controlled temperature digesters. These new standards will have two 
major benefits. They will make it easier for producers to fit anaerobic 
digesters into their EQIP contracts as part of a comprehensive nutrient 
management plan. They will also make it easier for producers to use 
technical service providers to plan and construct digesters.
    The Conservation Reserve Program (CRP) and Wetlands Reserve Program 
(WRP) can provide significant amounts of carbon sequestration. 
Conversion of cultivated lands back into forests, grasslands or 
wetlands, which occurs on CRP and WRP lands, fosters the accumulation 
of carbon in soils and vegetation. On Earth Day, Secretary Veneman 
announced that the Farm Services Agency (FSA) will target 500,000 acres 
of continuous signup enrollment toward bottomland hardwood trees, an 
action that will increase the amount of carbon stored by the CRP. 
Bottomland hardwoods are among the most productive ecosystems for 
carbon sequestration in the United States. In another step to provide 
incentives for carbon sequestration, FSA modified the environmental 
benefits index (EBI) used to score and rank bids into the program. The 
revised EBI will give points specifically for practices that sequester 
carbon, giving these practices a higher priority under the program than 
they otherwise would have.
    The Forest Service also has responsibilities for implementing 
actions announced by the Secretary. Using new authority established 
under the Farm Security and Rural Investment Act of 2002, carbon 
sequestration will be one of the formal objectives of the Forest Land 
Enhancement Program (also known as FLEP). Through FLEP, the Forest 
Service, working with States, can promote carbon sequestration with 
tree planting, forest stand improvements, and agroforestry practices.
    Forests and agriculture can also be the source of domestic, 
renewable energy. USDA recently announced the availability of $44 
million in grants for energy efficiency, biomass energy, and biomass 
products development. Twenty-three million dollars of this will be 
available from USDA's Rural Development for the Renewable Energy 
Systems and Energy Efficiency Improvements program to assist farmers, 
ranchers, and rural small businesses to develop renewable energy 
systems and make energy efficiency improvements to their operations. 
Farmers and ranchers are eligible for loan guarantees for renewable 
energy systems, including anaerobic digesters under the Rural Business 
and Industry Programs administered by Rural Development.
    Through the Biomass Research and Development Initiative, in 
cooperation with the Department of Energy, $21 million in grants are 
available to carry out research, development and demonstration of 
biomass energy, biobased products, biofuels and biopower processes. 
USDA also recently announced key revisions to the Commodity Credit 
Corporation Bioenergy Program to expand industrial consumption of 
agricultural commodities by promoting their use in the production of 
ethanol and biodiesel.
    USDA is also working with partners in the private sector. This 
February, Secretary Veneman announced commitments from two industry 
groups with strong natural resource ties. The members of the American 
Forest and Paper Association have committed to actions that they expect 
will improve their greenhouse gas intensity by 12 percent by 2012. The 
members of the National Rural Electric Cooperative Association agreed 
to work with USDA to break down the barriers that farmers and ranchers 
face in generating renewable power. America's rural landowners can be a 
source of solar, wind, and biomass power. These opportunities can be 
win-win partnerships for the rural utilities and farmers.
    Companies and industrial sectors are making commitments under the 
Administration's Climate VISION program. Companies with an interest in 
forest and agricultural carbon sequestration are looking to USDA to 
give them the tools they need to measure and report on their actions.
    Last year, USDA was directed to develop new accounting rules and 
guidelines for reporting greenhouse gas activities on forests and 
agricultural lands. The new accounting rules and guidelines will be 
used by companies and individuals to report their activities to the 
Department of Energy under their voluntary greenhouse gas reporting 
system. The DOE reporting program is undergoing revisions that are 
expected to be completed by January 2004. The Forest Service and NRCS 
have taken the respective leads for the forest and agriculture 
components of the guidelines. USDA has undertaken an extensive public 
comment process including two well-attended workshops in January 2003. 
We solicited written comments from the public on our process and will 
provide additional opportunities for public input before the accounting 
rules and guidelines are finalized.
    USDA's research program plays an important role in the government's 
efforts to understand climate change. The budget for USDA's 
participation in the US Global Change Research Program (USGCRP) and 
Climate Change Research Initiative (CCRI) has increased in each of the 
last 2 years. The USDA fiscal year 2003 budget for CCRI and USGCRP 
combined is $63 million, up from $57 million in fiscal year 2002. In 
fiscal year 2004, USDA is requesting an additional $7.1 million for the 
President's CCRI priorities. The increases requested for fiscal year 
2004 fall primarily in the following areas: Improving the methods for 
measuring and estimating above and below-ground carbon storage on 
forest and agriculture systems; Collecting carbon flux measurement data 
at specific locations that can be scaled to regional and national 
statistics; Developing management practices and techniques for 
increasing carbon sequestration and reducing greenhouse gas emissions; 
Demonstration projects to facilitate the incorporation of carbon 
sequestration into USDA programs; Finalizing the new accounting rules 
and guidelines for estimating and reporting carbon sequestration and 
greenhouse gas emissions from forest and agricultural activities. 
Finally, USDA continues to invest in research to improve our 
understanding of how crops, livestock, trees, pests, and other facets 
of ecosystems will respond, either positively or negatively, to higher 
levels of greenhouse gases in the atmosphere. We are seeking cost-
effective ways to make agriculture and forests more adaptable to any 
changes in climate and weather, should they occur. We are pursuing an 
improved understanding of the role of natural and managed ecosystems in 
the global carbon cycle. We are developing technologies and practices 
to reduce emissions of greenhouse gases and increase carbon 
sequestration. We are now harnessing the portfolio of conservation 
programs to build carbon back into the soil and vegetation, integrating 
greenhouse gas considerations in our conservation efforts.
    Thank you again for the opportunity to address this Subcommittee. I 
am now available to answer your questions.

                               __________
  Statement of Bob Stallman President, American Farm Bureau Federation

    Chairman Voinovich, members of the Subcommittee, my name is Bob 
Stallman. I am President of the American Farm Bureau Federation (AFBF) 
and a rice and cattle producer from Columbus, TX. On behalf of the 5.3 
million members of the American Farm Bureau I am pleased to be speaking 
to you today on agriculture's role in sequestering carbon in our 
nation's soil. Carbon is the key building block and cornerstone element 
for all things living. For those of us in agriculture, we have learned 
through years of research and practical experience that soil carbon is 
essential for optimizing the production of food and fiber in addition 
to the profitability of farming and ranching. Carbon used in crop 
production is replenished in the soil by crop and root residues, with 
less soil carbon being lost when minimum or no-till regiments are 
implemented.
    The USDA's Agricultural Research Service estimates that 20 million 
metric tons of carbon is currently sequestered each year in U.S. farm 
and grazing land soils. This estimate indicates that U.S. farms and 
ranches are indeed a net ``carbon bank'' or sink, sequestering carbon 
in the soil and keeping it out of the atmosphere. Many producers have 
made a decision on an economic basis to employ conservation tillage 
practices such as minimum/no till and cover crop regimens in their farm 
and ranch operations. With more producers changing individual farm 
management practices, USDA and State Department personnel estimate that 
an additional 180 million metric tons annually could be stored in farm 
and range land acres. This would account for 12 to 14 percent of the 
total U.S. emissions of carbon according to the State Department.
    Carbon and its role in the climate change issue has been the 
subject of recent debate, and will continue to be as attempts are made 
to attach climate change legislation to the energy bill or other 
legislative vehicles. We are not here today to discuss the merits or 
demerits of the theory of the climate change issue. With regard to 
carbon sequestration, it is undeniable that agriculture can play a 
vital role.
    In 2001, President Bush announced the development of a 
comprehensive strategy to reduce greenhouse gas intensity in the United 
States by 18 percent by 2012. A vital component of the strategy is to 
encourage increased sequestration of carbon in forests and rangelands. 
In February of this year, the President announced the Climate Voluntary 
Innovative Sector Initiatives: Opportunities Now, or Climate VISION 
program. A voluntary, public-private partnership, the primary goal of 
the program is to pursue cost-effective initiatives that will reduce 
the projected growth in America's greenhouse gas emissions. AFBF has 
begun discussions with the Administration to see what role the 
agricultural sector could play in the Climate VISION program.
    Last month, Secretary of Agriculture Ann Veneman announced that the 
USDA would consider greenhouse gas management practices when evaluating 
applications for the Environmental Quality Incentives Program (EQIP), 
the Conservation Reserve Program (CRP) and the Forest Land Enhancement 
Program (FLEP). America's farm and ranch community has long supported 
and responded to voluntary, incentive based programs, as is evident by 
the waiting lists to participate in many conservation programs such as 
EQIP and CRP. Time and time again, when an environmental challenge has 
presented itself, American agriculture has answered the call.
    I would be remiss if I did not reiterate our opposition to any 
mandatory measures pertaining to climate change and carbon 
sequestration but rather the need to maintain a voluntary approach to 
agricultural sequestration. Some involved in the climate change issue 
have advocated a mandatory cap and trade approach for carbon as a way 
to ``establish'' a carbon market and increase sequestrations and 
trading participation. We strongly disagree with that approach. While a 
mandatory cap and trade may increase the value of the carbon being 
sequestered, an analysis by Sparks Companies, Inc., re-released, last 
month concludes that the increased energy costs to the agricultural 
sector associated with any Kyoto-like mandatory program would more than 
offset any cash value in the sequestration of carbon by farmers and 
ranchers on a per-acre basis.
    Like many other industries, agriculture has in the past, and will 
in the future, respond if the appropriate incentive-based tools are 
employed. Some of the needed tools like EQIP and CRP already exist. 
Other tools, like voluntary carbon trading, are just now being 
developed. Private entities are currently developing and implementing 
voluntary pilot carbon trading systems. In one case, the Iowa Farm 
Bureau and Kansas Farm Bureau are already involved with private trading 
entities, disseminating information to farmers and ranchers and helping 
to put landowners together with carbon-trading exchanges in an effort 
to trade carbon under free market rules. The American Farm Bureau 
Federation supports the development of a practical, voluntary carbon 
trading system and the development of trading criteria, standards and 
guidelines.
    While potential for agricultural carbon sequestration in the United 
States exists, many challenges remain. One area that must be addressed 
before increased sequestration can be realized is the development of 
methods and procedures to credit farmers and ranchers who have employed 
in the past, and continue to employ, conservation tillage practices in 
their operations. Other challenges include the continued development of 
carbon trading guidelines, the establishment of accurate crediting and 
values for sequestered carbon on farm and ranch lands, and the 
development of other cost effective incentives to further advance 
carbon sequestration in agricultural soils. None of these challenges is 
insurmountable and AFBF looks forward to working with the USDA, 
Department of Energy, the Environmental Protection Agency, Congress and 
many others within the private sector to find solutions and move 
forward with this endeavor.
    There is no doubt that agriculture can and will play an expanded 
role in sequestering carbon on America's farmland. We strongly support 
President Bush's voluntary approach to climate change issues and his 
call for the public and private sectors to work together to increase 
the sequestration of carbon on America's farm and rangeland. The 
American Farm Bureau appreciates this opportunity to share our views on 
agriculture's role in helping solve the carbon sequestration puzzle. We 
look forward to working with you.

                               __________
 Statement of Rattan Lal, Director Carbon Management and Sequestration 
              Center/FAES, OARDC The Ohio State University

    Mr. Chairman, members of the Senate Committee on Environment and 
Public Works. I am Rattan Lal, Professor of Soil Science and Director 
of the Carbon Management and Sequestration Center at The Ohio State 
University. I am especially thankful to Senator Voinovich for the 
opportunity to offer testimony on ``Soil Carbon Sequestration by 
Agriculture and Forestry Land Uses for Mitigating Climate Change.''
    Let me begin by expressing my appreciation of strong cooperation 
with several institutions and organizations across the country. During 
the past decade, the program at The Ohio State University (OSU) has 
been supported by USDA-Natural Resource Conservation Service (NRCS). We 
have also worked with scientists from USDA-Agricultural Research 
Service (ARS). The multi-institutional team comprised of OSU/NRCS/ARS 
has published 15 books, which constitute a major literature on this 
topic. In addition, OSU also has on-going activities under the C-site 
program with the Pacific Northwest National Laboratory and the Oak 
Ridge National Laboratory. Being a founding member of the ``Consortium 
for Agricultural Soils Mitigation of Greenhouse Gases (CASMGS),'' the 
OSU team is collaborating with faculty from ten universities in 
assessing soil carbon (C) sequestration in the U.S. cropland. The OSU/
NRCS/ARS team has completed assessment of the potential of U.S. 
cropland, grazing lands and forestlands to sequester C. In cooperation 
with the Ohio Coal Development Office, American Electric Power, and the 
Los Alamos National Laboratory, we are assessing the rate of soil 
carbon sequestration and soil quality improvement by reclamation of 
mineland sites in Ohio and New Mexico. We have collaborated with USDA-
Economic Research Service (ERS) on the topic of soil degradation and 
its effects on productivity and soil carbon dynamics. We are now 
developing a National Soil Carbon Assessment Program (NSCAP) with NRCS. 
The objective of NSCAP is to assess soil carbon sequestration under on-
farm conditions for principal ecoregions, major soils and dominant land 
uses of the U.S. It is our hope to continue receiving funding for this 
important undertaking. We are working with these partners because we 
share the same values and goals of ``sustainable management of soil and 
water resources, reducing net emissions, and creating a clean 
environment.''
    The basis of our shared commitment is the mutual concern about the 
quality of the nation's soil and water resources and the environment. 
We realize how important and critical the quality of soil resources is 
for maintaining high economic agricultural production while moderating 
the quality of air and water. Soils constitute the third largest carbon 
pool (2,300 Gt or billion tons), after oceanic (38,000 Gt) and geologic 
(5,000 Gt) pools. The soil carbon pool is directly linked with the 
biotic (600 Gt) and atmospheric (770 Gt) pools. Change in soil carbon 
pool by 1 Gt is equivalent to change in atmospheric concentration of 
CO<INF>2</INF> by 0.47 ppm. Therefore, increase in soil carbon pool by 
1 Gt will reduce the rate of atmospheric enrichment of CO<INF>2</INF> 
by 0.47 ppm.
    The atmosphere carbon pool has progressively increased since the 
industrial revolution. With industrialization and expansion of 
agriculture, through deforestation and plowing, came soil degradation 
and emission of gases into the atmosphere. Indeed, the atmospheric 
concentration of three important greenhouse gases (carbon dioxide, 
methane and nitrous oxide) has been increasing due to anthropogenic 
perturbations of the global carbon and nitrogen cycles. For example, 
the pre-industrial concentration of CO<INF>2</INF> at 280 parts per 
million (0.028 percent or 600 Gt) increased to almost 365 ppm (0.037 
percent or 770 Gt) in 1998 and is increasing at the rate of 0.43 
percent/yr or 3.2 Gt/y. The historic gaseous increase between 1850 and 
1998 has occurred due to two activities: (1) fossil fuel burning and 
cement production which has contributed 270 (+30) Gt of carbon as 
CO<INF>2</INF>, and (2) deforestation and soil cultivation which has 
emitted 136 (+55) Gt. Of this, the contribution from world soils may 
have been 78 (+12) Gt of which 26 (+9) Gt may be due to erosion and 
related soil-degradative processes. In comparison with the global 
emissions, cropland soils of the United States have lost 3 to 5 Gt of 
carbon since conversion from natural to agricultural ecosystems.
    The projected climate change caused by increase in atmospheric 
concentration of CO<INF>2</INF> and other trace gases can be mitigated 
by reducing emissions and sequestering emissions. Strategies for 
emission reductions include enhancing energy production and use 
efficiency, and using biofuels. Emission sequestrations involve biotic 
and abiotic options. Important biotic options include carbon 
sequestration in soils, vegetation and wetlands. Together, biotic 
sequestration in soil and vegetation is called ``terrestrial 
sequestration.''
    Terrestrial carbon sequestration is a natural process with numerous 
ancillary environmental benefits. In contrast to geologic and oceanic 
sequestration, which may be expensive and have unknown ecological 
impacts, terrestrial sequestration is the most cost effective option. 
Natural carbon sinks (terrestrial and oceanic) are presently absorbing 
4.7 Gt out of the total anthropogenic emissions of 8.0 Gt or about 60 
percent of the total emission. It is prudent, therefore, to enhance the 
carbon storage capacity of natural sinks (such as soils and vegetation) 
through conversion to a judicious land use and adoption of recommended 
management practices for soil, water, and crop/vegetation. Agriculture 
has an important and positive role to play in enhancing the capacity of 
natural terrestrial sinks.
    Greenhouse gases are released into the atmosphere when trees are 
cut down and burnt, soils plowed, and wetlands are drained and 
cultivated. In addition, excessive soil cultivation and inappropriate 
or inefficient use of nitrogenous fertilizers can result in emission of 
greenhouse gases from soil to the atmosphere. Finally, accelerated soil 
erosion can lead to a drastic reduction in soil organic carbon (SOC) 
content. Although the fate of the carbon that is transported by wind 
and water is not well understood, it is believed that a considerable 
portion of the eroded carbon may be mineralized and emitted into the 
atmosphere. It is estimated that soil erosion annually emits 1 Gt of 
carbon globally and 0.15 Gt from soils of the United States. Although 
agricultural processes are presently not the main source of gaseous 
emissions, they have clearly been a significant source. Yet, the 
emissions of carbon from soils are reversible through conversion to a 
restorative land use and adoption of recommended agricultural 
practices. These estimates of the amount of lost C, crude as these may 
be, provide a reference point about the sink capacity through land use 
conversion and adoption of recommended practices.
    Soil organic matter (SOM), of which 58 percent is carbon, is one of 
our most important national resources. It consists of a mixture of 
plant and animal residues at various stages of decomposition and by-
products of microbial activity. The SOM is a minor component of the 
soil (1-3 percent), but plays a very important role in biological 
productivity and ecosystem functions. Enhancing SOM concentration is 
important to improving soil quality, reducing risks of pollution and 
contamination of natural waters, and decreasing net gaseous emissions 
to the atmosphere. The SOM pool can be enhanced through: (1) 
restoration of degraded soils and ecosystems, and (2) intensification 
of agriculture on prime soils.
    Enhancing the SOM pool is an important aspect of restoration of 
soils degraded by severe erosion, salinization, compaction, and 
mineland disturbance. Degraded soils have been stripped of a large 
fraction of their original SOM pool. Globally, there are 1216 million 
hectares (Mha) (3 billion acres) of degraded lands of which 305 Mha 
(753 million acres) are strongly and extremely degraded soils. U.S. 
cropland prone to moderate and severe erosion is estimated at 19.4 Mha 
(48 million acres) by wind erosion and 26.2 Mha (65 million acres) by 
water erosion. An additional 0.3 Mha (0.7 million acres) are affected 
by salinization, 2.1 Mha (5.2 million acres) of land affected by all 
mining, and 0.6 Mha (1.5 million acres) of land strip-mined for coal is 
in need of restoration. Land conversion and restoration transforms 
degraded lands into ecologically compatible land use systems. The 
Conservation Reserve Program (CRP) is designed to convert highly 
erodible land from active crop production to permanent vegetative cover 
for a 10-year period. In addition to erosion control, land under CRP 
can sequester carbon in soil at the rate of 0.5 to 1.0 t/ha/y (450 to 
900 lbs C/acre/y). Erosion control also involves establishing 
conservation buffers and filter strips. These vegetated strips, ranging 
from 5 to 50 m wide (16.5 to 165 ft. wide) are installed along streams 
as riparian buffers and on agricultural lands to minimize soil erosion 
and risks of transport of non-point source pollutants into streams. The 
rate of carbon accumulation in soil under conservation buffers is 
similar to that of the land under CRP. The USDA has a voluntary program 
to develop 3.2 million km (2 million miles) of conservation buffers.
    Wetlands are also an important component of the overall 
environment. Approximately 15 percent of the world's wetlands occur in 
the United States (40 Mha or 100 million acres) of which 2 Mha (5 
million acres) are in need of restoration. Natural wetlands have a 
potential to accumulate carbon (net of methane) at the rate of 0.2 to 
0.3 t/ha/y (180 to 270 lbs/acre/y).
    Surface mining of coal in the U.S. affected 2 Mha (5 million acres) 
between 1978 and 2002, of which 1 Mha (2.5 million acres) have been 
reclaimed. The land area affected by surface mining of coal was about 
40,283 ha (100,000 acres) during 2002. Restoring minelands, through 
leveling and using amendments for establishment of pastures and trees, 
has a potential to sequester 0.5 to 1 t C/ha/y (450 to 900 lbs C/acre/
y) for 50 years. Similar potential exists in restoring salt-affected 
soils.
    The overall potential of restoration of degraded soils in the 
United States is 17 to 39 million metric tons (MMT) per year for the 
next 50 years or until the sink capacity is filled. Intensification of 
agriculture involves cultivating the best soils using the best 
management practices to produce the optimum sustainable yield. Some 
recommended agricultural practices, along with the potential of SOC 
sequestration are listed in Table 1. Conversion from plowing to no till 
or any other form of a permanent conservation till has a large 
potential to sequester carbon and improve soil quality. There is a 
strong need to encourage the farming community to adopt conservation 
tillage systems.
    Adoption of recommended practices on 155 Mha (380 million acres) of 
U.S. cropland has a potential to sequester 75 to 208 MMTC/y. Grazing 
lands, rangeland and pastures together, occupy 212 Mha (524 million 
acres) of privately owned land and 124 Mha (300 million acres) of 
publicly owned land.
    Total soil carbon sequestration potential of U.S. grazing land is 
30 to 110 MMTC/y.
    The potential of U.S. forest soils on 302 Mha (746 million acres) 
to sequester carbon is 49 to 186 MMTC/y.
    Thus, the total potential of U.S. agricultural and forest soils 
(Table 2) is 171 to 546 MMTC/y or an average of 360 MMTC/y. In addition 
to crop residue, there are other biosolids produced that can be 
composted and used on agricultural lands. The potential of using manure 
and compost on agricultural lands need to be assessed. Of the total 
national emission of about 1,892 MMTCE/y for 2001, agricultural 
practices contribute 143 MMTCE/y. Therefore the potential carbon 
sequestration in U.S. soils represents 19 percent of total U.S. 
emissions, and 2.5 times the emissions from agricultural activities. 
Thus, soil carbon sequestration alone can reduce the net U.S. emissions 
from 1,892 MMTCE to 1,532 MMTCE/y.
    If the full potential of soil carbon sequestration is realized, the 
total sink capacity can be 609 MMTC/y (Table 3). These statistics 
indicate the need for a serious consideration of determining what 
fraction of the total potential is realizable, at what cost and by what 
policy instruments. There is a widespread perception that agricultural 
practices cause environmental problems, especially those related to 
water contamination and the greenhouse effect. Our research has shown 
that scientific agriculture and conversion of degraded soils to a 
restorative land use can also be a solution to environmental issues in 
general and to reducing the net gaseous emissions in particular. Thus, 
soil carbon sequestration has a potential to reduce the net U.S. 
emissions by 360 MMTC/y. This potential is realizable through promotion 
of CRP, WRP, erosion control and restoration of degraded soils, 
conservation tillage, growing cover crops, improving judicious 
fertilizer use and precision farming, and composting. Actions that 
improve soil and water quality, enhance agronomic productivity and 
reduce net emissions of greenhouse gases are truly a win-win situation. 
It is true that soil carbon sequestration is a short-term solution to 
the problem of gaseous emissions. In the long term, reducing emissions 
from the burning of fossil fuels by developing alternative energy 
sources is the only solution. For the next 50 years, however, soil 
carbon sequestration is a very cost-effective option, a ``bridge to the 
future'' that buys us time in which to develop those alternative energy 
options.

References

1. Birdsey, R. 2001. Potential carbon storage in forest soils of the 
    U.S. Unpublished, USDA-FS.
2. Lal, R., J. Kimble, E. Levine and B.A. Stewart (eds). 1995. Soils 
    and Global Change. Advances in Soil Science, Lewis Publishers, 
    Chelsea, MI, 440 pp.
3. Lal, R., J. Kimble, E. Levine and B.A. Stewart (eds). 1995. Soil 
    Management and Greenhouse Effect. Advances in Soil Science, Lewis 
    Publishers, Chelsea, MI, 385 pp.
4. Lal, R., J.M. Kimble, R.F. Follett and B.A. Stewart (eds). 1998. 
    Soil Processes and the Carbon Cycle. CRC. Boca Raton, FL, 609 pp.
5. Lal, R., J.M. Kimble, R.F. Follett and B.A. Stewart (eds). 1998. 
    Management of Carbon Sequestration in Soils. CRC, Boca Raton, FL, 
    457 pp.
6. Lal, R., J.M. Kimble, R.F. Follett and C.V. Cole. 1998. The 
    Potential of U.S. Cropland to Sequester C and Mitigate the 
    Greenhouse Effect. Ann Arbor Press, Chelsea, MI, 128 pp.
7. Lal, R., J.M. Kimble and B.A. Stewart (eds). 2000. Global Climate 
    Change and Pedogenic Carbonates. Lewis/CRC Publishers, Boca Raton, 
    FL, 378 pp.
8. Lal, R., J.M. Kimble and B.A. Stewart. 2000. Global Climate Change 
    and Tropical Ecosystems. Lewis/CRC Publishers, Boca Raton, FL, 438 
    pp.
9. Lal, R., J.M. Kimble and B.A. Stewart 2000. Global Climate Change 
    and Cold Regions Ecosystems. CRC/Lewis Publishers, Boca Raton, FL.
10. Lal, R., J.M. Kimble and R.F. Follett (eds). 2001. Assessment 
    Methods for Soil Carbon. CRC/Lewis Publishers, Boca Raton, FL, 676 
    pp.
11. Follett, R.F., J.M. Kimble and R. Lal (eds). 2000. The Potential of 
    U.S. Grazing Lands to Sequester Carbon and Mitigate the Greenhouse 
    Effect. CRC/Lewis Publishers, Boca Raton, FL, 442 pp.
12. Lal, R. and J.M. Kimble. 1997. Conservation tillage for carbon 
    sequestration. Nutrient Cycling in Agroecosystems, 49, 243-253.
13. Lal, R., R.F. Follett, J.M. Kimble and C.V. Cole. 1999. Managing 
    U.S. cropland to sequester carbon in soil. J. Soil Water Conserv. 
    54: 374-381.
14. Lal, R. (ed) 2001. Soil Carbon Sequestration and the Greenhouse 
    Effect. Special Publication, Soil Science Society of America, 
    Madison, WI.
15. Kimble, J., R. Lal and R.F. Follett (eds) 2002. Agricultural 
    Policies and Practices for Carbon Sequestration in Soils. CRC 
    Press, Boca Raton, FL, 512pp.
16. Kimble, J., R. Birdsey, L. Heath and R. Lal (eds) 2002. The 
    Potential of U.S. Forest Soils to Sequester Carbon and Mitigate the 
    Greenhouse Effect. CRC Press, Boca Raton, FL, 429pp.
17. Lal, R. 1999. Soil management and restoration for C sequestration 
    to mitigate the greenhouse effect. Prog. Env. Sci. 1: 307-326.
18. Lal, R. and J.P. Bruce. 1999. The potential of world cropland to 
    sequester carbon and mitigate the greenhouse effect. Env. Sci. & 
    Policy 2: 177-185.
19. Lal, R. 2000. Carbon sequestration in drylands. Annals Arid Zone 
    38: 1-11.
20. Izaurralde, R.C., N.J. Rosenberg and R. Lal. 2001. Mitigation of 
    climate change by soil carbon sequestration. Adv. Agron. 70: 1-75.
21. Lal, R. 2001. World cropland soils as a source or sink for 
    atmospheric carbon. Adv. Agron. 71: 145-191.
22. Lal, R. 2000. We can control greenhouse gases and feed the world 
    with proper soil management. J. Soil Water Conserv. 55: 429-432.
23. Lal, R. 2001. Potential of desertification control to sequester 
    carbon and mitigate the greenhouse effect. Climate Change 15: 35-
    72.
24. USEPA 2001. Inventory of U.S. Greenhouse Gas Emissions and Sinks: 
    1990-2001 (draft). EPA 23RR-00-001.
25. Akala, V.A. and R. Lal. 2001. Soil organic carbon pools and 
    sequestration rates in reclaimed minesoils in Ohio. J. Env. Qual. 
    30: 2098-2104.
26. Starr, G.C., R. Lal, R. Malone, L. Owens, D. Hothem and J.M. 
    Kimble. 2000. Modeling erosional impacts on soil carbon. Land 
    Degrad. & Dev. 11: 83-91
27. Lal, R. 2002. The potential of soils of the tropics to sequester 
    carbon and mitigate the greenhouse effect. Adv. Agron. 74: 155-192.
28. Lal, R. 2002. Soil carbon dynamics in cropland and rangeland. Env. 
    Pollution 116: 353-362.
29. Lal, R. 2002. Carbon sequestration in dryland ecosystems of West 
    Asia and North Africa. Land Degrad. & Dev. 13: 45-59.
30. Lal, R. 2002. Soil C sequestration in China through agricultural 
    intensification and restoration of degraded and desertified soils. 
    Land Degrad. & Dev. 13: 469-478.
31. Lal, R. 2003. Global potential of soil C sequestration to mitigate 
    the greenhouse effect. Crit. Rev. Plant Sci. 22: 151-184.

         Table 1. Recommended practices for soil C sequestration
------------------------------------------------------------------------
                                                             Potential
                                                            rate of soil
                         Practice                              carbon
                                                           sequestration
                                                             (t/ha/yr)
------------------------------------------------------------------------
Conservation tillage & mulch farming.....................       0.1-0.5
Compost and manuring.....................................      0.05-0.5
Elimination of summer fallow.............................      0.05-0.4
Growing winter cover crops...............................       0.2-0.5
Integrated nutrient management/precision farming.........       0.1-0.4
Improved varieties and cropping systems..................      0.05-0.4
Water conservation and water table management............      0.05-0.3
Improved pasture management..............................      0.05-0.3
Afforestation/reforestation..............................      0.08-0.4
Fertilizer use in forest soils...........................       0.8-3.0
Restoration of eroded mineland and otherwise degraded             0.3-1
 soils...................................................
------------------------------------------------------------------------
Source: Lal et al. (1998); Follett et al. (2000); Birdsey (2000)


     Table 2. Total potential of U.S. agricultural soils for carbon
                             sequestration.
------------------------------------------------------------------------
                                                            Potential of
                                                            soil carbon
                         Strategy                          sequestration
                                                             (MMT C/yr)
------------------------------------------------------------------------
Land conversion and restoration..........................         17-39
Intensification of cropland..............................        75-208
Improved management of grazing land......................        30-110
Improved management of forest soils......................        49-189
                                                          --------------
    Total................................................  71-546 (360)
------------------------------------------------------------------------
Source: Lal et al. (1998); Follett et al. (2000); Birdsey (2000); Kimble
  et al. (2002)


       Table 3. Potential sink capacity of terrestrial ecosystems.
------------------------------------------------------------------------
                                                                 Sink
                          Activity                             capacity
                                                              (MMTC/yr)
------------------------------------------------------------------------
Above-ground forest........................................          247
Soils......................................................         360*
Landfill...................................................            2
                                                            ------------
    Total..................................................          609
------------------------------------------------------------------------
*The soil sink potential can be realized through policy intervention,
  and needs to be adjusted for hidden carbon costs of input used.


            Table 4. Potential of soil carbon sequestration.
------------------------------------------------------------------------
                                                              Potential
                        State/region                           (MMTC/y)
------------------------------------------------------------------------
Ohio.......................................................         8-12
U.S.A......................................................      147-546
World croplands............................................     600-1200
------------------------------------------------------------------------

                               __________
    Statement of Joseph L. Bast, President, The Heartland Institute
    Thank you, Mr. Chairman, for inviting me to testify here today. My 
testimony is based on a joint research project by economists at The 
Heartland Institute, the Hudson Institute, and the American Farm Bureau 
Federation. Our opinions are our own.
    Carbon sequestration, the topic of this hearing, certainly appears 
from a distance to be an attractive alternative to mandating reductions 
in greenhouse gas emissions, especially since many experts believe 
forcing utilities and other significant emitters to reduce emissions is 
very costly and would produce few offsetting benefits. But upon closer 
inspection, carbon sequestration faces daunting problems of its own.
    I would like to call your attention to four such problems.
    1. Paying farmers and livestock producers to sequester carbon would 
lead to heavy-handed and potentially ruinous regulation of farms and 
ranches.
    Farmers can indeed help store more carbon in their crops and soil, 
but farming especially dairy farms and cattle ranches is also a 
significant source of greenhouse gases. It is unrealistic to expect the 
industry would be for long exempted from the same emission permit 
requirements imposed on other emitters. Soon, other regulations would 
be imposed on farmers in the name of fighting global warming, including 
limitations on production per acre for some crops, mandatory fallowing 
of crop land, limits and restrictions on livestock production, and 
restrictions on the use of fertilizer.
    2. Endorsing sequestration may mean endorsing ``cap and trade'' 
programs, which in turn means higher energy costs.
    Without a government-imposed cap on greenhouse gas emissions, few 
emitters would need to buy the emission permits farmers would earn by 
sequestering more carbon. But a cap and trade program would have the 
same effect as an energy tax, and such a tax would have to be set high 
the equivalent of $0.50 a gallon of gasoline or more in order to reduce 
emissions enough to make a difference.
    Higher energy prices would dramatically reduce profits in the U.S. 
agricultural sector. Farmers stand to see their net profits fall by as 
much as 84 percent, and typically 50 percent, if gasoline taxes are 
raised by 50 cents per gallon. Total annual U.S. farm production 
expenses would rise over $20 billion. Since it is difficult for farmers 
to pass cost increases along to consumers, a cap and trade greenhouse 
gas program could cause a 48 percent decrease in net farm income.
    3. Environmentalists will be disappointed, too. Even if a carbon 
sequestration program benefited farmers, it would do little to moderate 
global warming. Agricultural soils in the U.S. today capture only one-
twentieth of 1 percent of total annual greenhouse gas emissions, 
according to EPA, or 1 percent according to USDA. According to EPA, 
agricultural greenhouse emissions are 35 times greater than the amount 
being sequestered. And once saturation levels were reached, there could 
be no more gains on cropland with known farming systems, meaning 
sequestration is not a long-term solution.
    The biggest gains in carbon storage occur when cropland is returned 
to forests. Subsidizing tree planting, however, would reduce U.S. farm 
exports and prompt more farm output in countries where there are no 
artificial constraints on farming. This would lead to more clearing of 
forests in Third World countries, where deforestation is already a 
major problem. On a global scale, more carbon, not less, would be 
released into the atmosphere.
    4. Emissions trading is more problematic than its advocates admit.
    The ubiquitous presence of carbon dioxide in ambient air makes it 
very difficult to associate emissions with any specific source. Unlike 
sulfur dioxide, there are potentially hundreds of thousands or even 
millions of sources of carbon dioxide and other greenhouse gases. To 
avoid participants ``gaming the system,'' complex and probably 
unenforceable rules would be needed to determine that emission 
reductions are genuine, entity-wide, and net of any increases in 
emissions caused by higher energy use or other emission-generating 
activity in some other division of a plant or company, either 
concurrently or at some later time.
    Existing emissions trading programs are characterized by thin 
markets, government over-regulation that kills innovation, changing 
rules that leave investors high and dry, verification problems, and 
government meddling. All this uncertainly will, and quite rightly 
should, discourage participation by businessmen and women. The new 
Sarbanes-Oxley Act, which criminalizes even minor accounting mistakes, 
could hold the chief executive officer liable if a restatement of the 
value of permits earned or purchased becomes necessary.
    I conclude that carbon sequestration by farmers and ranchers in the 
U.S. is a false hope for those seeking to be paid to do what they would 
do anyway. It is a false dream for environmentalists who see it as a 
major part of the solution to global warming. And it is a poor strategy 
for an industry that should know better than to join a movement 
composed of groups and individuals who have been among its most 
strident critics.
    Thank you again for giving me this opportunity to be with you 
today. I am happy to answer any questions you might have.

                               __________
   Statement of Debbie A. Reed, Legislative Director, Global Warming 
            Campaign, Director, National Environmental Trust

Introduction
    Mr. Chairman and members of the Subcommittee, I am Debbie Reed, the 
Global Warming Campaign Director and Legislative Director at the 
National Environmental Trust, a nonprofit organization located in 
Washington, DC, with an organizing presence in 15 States. The National 
Environmental Trust conducts public education campaigns on important 
environmental issues through media education and field outreach.
    I am pleased to have this opportunity to share my expertise and 
that of the National Environmental Trust on what we feel is perhaps the 
greatest environmental issue confronting the world today: global 
climate change. While climate change is one of several important 
campaigns we work on at the National Environmental Trust, it is an 
overarching issue which affects virtually all the areas that we are 
concerned with as an organization. We commend this Committee and the 
Senate for dealing with the issue, and hope that you will continue to 
grapple with ways to reduce U.S. emissions of greenhouse gases (GHG).
    Global climate change can have a major impact on agriculture, and 
yet agriculture can play a positive role in helping to combat climate 
change. These two areas are of particular interest to me and my 
organization. Prior to joining NET in 2000, I was the Legislative 
Director and Director of Agricultural Policy at the White House Climate 
Change Task Force, and I previously worked for Senator J. Robert Kerrey 
of Nebraska, and at the U.S. Department of Agriculture. It was while I 
worked for Senator Kerrey that I began working on the issue of 
agriculture and global climate change. Coming from a largely rural, 
agricultural State, Senator Kerrey was concerned first with the impact 
of global climate change on agriculture, which, as a business conduced 
largely outdoors, may be hardest hit by increased global temperatures, 
changes in precipitation, and severe weather events. He was equally 
concerned with strategies to deal with climate change in order to 
prevent the potentially devastating consequences of unmitigated global 
warming. Fortunately, there is a nexus between agriculture and 
mitigation strategies to begin dealing with climate change.
    U.S. agriculture can make important, cost-effective contributions 
to offset a portion of U.S. emissions of GHG in the near-and medium-
term. But it is no panacea, nor is it a solution. With the proper mix 
of policies and incentives, agriculture can provide a bridge to a less 
fossil carbon-intensive future, while improving the sustainability and 
perhaps profitability of a beleaguered but nonetheless vital U.S. 
economic sector. Agriculture and climate change policy, approached 
correctly, offer truly ``win-win'' opportunities for society and the 
environment.
    I will limit my remarks today to the U.S. situation and domestic 
agricultural policies and practices, but the impacts of these policies 
and practices are universal. The same process by which agricultural 
soils absorb carbon, leading to improved agricultural sustainability 
and soil fertility and reduced erosion, also helps to reverse 
desertification and soil degradation in lands the world over.
    Forests and forest soils are also important carbon reservoirs in 
the U.S. and worldwide. Currently, deforestation, or the cutting and 
clearing of forests, accounts for approximately 25 percent of global 
GHG emissions, and is responsible for significant environmental 
degradation.\1\ Policies to protect forest ecosystems and manage 
forests for climate change benefits are extremely important, but are 
not the focus of my testimony.
---------------------------------------------------------------------------
     \1\IPCC, (2001), ``Third Assessment Report Climate Change 2001'', 
The Third Assessment Report of the Intergovernmental Panel on Climate 
Change, IPCC/WMO/UNEP. Summary for Policymakers
---------------------------------------------------------------------------
    http://www.ipcc/ch/pub/un/syreng/spm.pdf.
    Global Warming is Occurring As the overwhelming majority of 
scientists internationally and in this country have concluded, global 
climate change is occurring, and is linked to increased atmospheric 
concentrations of GHG.\2\ Evidence continues to accumulate that human 
activities and man-made GHG are contribute to global climate change.\3\ 
Fossil fuel combustion in the U.S. and globally accounts for the 
greatest amount of GHG emissions and increasing atmospheric 
concentrations, but other activities, including land use, land-use 
change and agriculture, also contribute.\4\
---------------------------------------------------------------------------
     \2\Ibid.
     \3\Ibid.
     \4\Ibid; U.S. Department of State, U.S. Climate Action Report 
2002, Washington, DC, May 2002. Report at http://www.epa.gov/
globalwarming/publications/car/index.html.
---------------------------------------------------------------------------
    Just last week, on July 2, 2003, the World Meteorological 
Organization issued an unprecedented alert indicating that record 
extremes in weather and climate events were continuing to occur around 
the world, stating: ``(r)ecent scientific assessments indicate that, as 
the global temperatures continue to warm due to climate change, the 
number and intensity of extreme events might increase.''\5\ The 
Organization documented recent extreme weather events in several 
countries, including the following in the United States:
---------------------------------------------------------------------------
     \5\World Meteorological Organization, WMO-No 695, Geneva, 2 July 
2003.
---------------------------------------------------------------------------
    ``In the United States, there were 562 tornados during May, which 
resulted in 41 deaths. This established a record for the number of 
tornados in any month. The previous monthly record was 399 tornadoes in 
June 1992. In the eastern and southeastern part of the US, wet and cold 
conditions prevailed for well over a month. Weekly negative temperature 
anomalies of--2 degrees Celsius to--6 degrees Celsius were experienced 
in May while precipitation excesses, ranging from 50 mm to 350 mm over 
a period of more than 12 weeks starting in March 2003, have been 
recorded.''
    To prevent dangerous consequences from climate change, the U.S. and 
other countries must reduce our reliance on the burning of fossil 
energy sources.\6\ Mandatory policies to reduce GHG emissions are 
needed to command the resources and ingenuity necessary to convert to a 
less fossil-carbon-intensive future, and in a timeframe that prevents 
potentially devastating consequences for our society and others. Such 
policies, once enacted, will take time to implement. But until the U.S. 
begins to approach global climate change with credible policies that 
reduce net GHG emissions, we should pursue with vigor strategies such 
as agricultural sequestration to help offset as much of our emissions 
as possible.
---------------------------------------------------------------------------
     \6\IPCC, (2001), ``Third Assessment Report Climate Change 2001'', 
The Third Assessment Report of the Intergovernmental Panel on Climate 
Change, IPCC/WMO/UNEP. Summary for Policymakers http://www.ipcc/ch/pub/
un/syreng/spm.pdf.
---------------------------------------------------------------------------
Global Warming is a Threat to Agriculture
    U.S. agricultural is a major industry. Farming contributed $80.6 
billion (0.8 percent) to the national gross domestic product (GDP) in 
2001.\7\ The U.S. agricultural sector provides the safest, most 
abundant and economical food and fiber supply in the world, and is the 
engine behind U.S. growth and prosperity, literally fueling our ability 
to prosper. However, farmers and many rural communities operate on the 
financial edge, within narrow profit margins and under variable 
environmental conditions. The threat of global warming and potentially 
severe weather events jeopardize the very livelihood of farmers and 
rural communities, as well as the ability of agriculture to continue to 
fuel U.S. prosperity. The potential impact of global climate change on 
agriculture should not and cannot be ignored.
---------------------------------------------------------------------------
     \7\ U.S. Department of Commerce, Bureau of Economic Analysis, 
http://www.bea.gov/bea/dn2/gpoc.htm).
---------------------------------------------------------------------------
    Some general circulation models (GCMs) predict that regional 
temperatures and moisture shifts caused by warming trends will require 
adaptive changes in agriculture across the country.\8\ However, 
predictions for reduced crop yields, increased flooding, droughts, 
pests and diseases also raise the possibility that U.S. agricultural 
production will be harmed.\9\ U.S. farmers are a resilient, market-
savvy group, keeping up with futures markets and trade boards, reacting 
as necessary to optimize profits and remain viable. However, 
catastrophic storm events can overwhelm a farmer's resilience and 
ability to adapt, as can changes in moisture that can devastate 
harvests, forage, and livestock production. Warmer climates also favor 
the proliferation of insect pests and crop and livestock diseases. 
Potential severe weather events, such as flooding or drought, can 
overwhelm not just individual farmers, but entire communities and 
regions. The agricultural sector and rural communities alike thus have 
vested interests in addressing the threat of climate change.
---------------------------------------------------------------------------
     \8\International Food and Policy Research Institute, 2020 VISION: 
``Global warming changes the forecast for agriculture,'' April 2001. 
(http://www.ifpri.org/2020/newslet/nv--0401/nv--0401--Global--
Warming.htm)
     \9\ Rosenzweig, C., A. Iglesias, X.B. Yang, P.R. Epstein, and E. 
Chivian, ``Climate Change and U.S. Agriculture: The Impacts of Warming 
and Extreme Weather Events on Productivity, Plant Disease, and Pests;'' 
Center for Health and the Global Environment, Harvard Medical School, 
May 2000.
---------------------------------------------------------------------------
Agriculture and Forestry as a Source and Sink of GHG Emissions
    Agriculture and forestry currently represent a ``net sink'' in the 
U.S., and helped to offset just over 7 percent of U.S. emissions in 
1999. The enactment of policies to promote more widespread adoption of 
proven management practices to enhance this sink effect can boost this 
potential above current ``business as usual'' levels. Agricultural 
soils were but 0.6 percent of the total net sink, for instance, but 
scientists estimate the soils have the capacity to offset up to 10 
percent of U.S. emissions.
    Total U.S. emissions in 1999 were 1840 million metric tons of 
carbon equivalents (MMTCE).\10\ The agricultural and forestry sectors 
contributed roughly 134 MMTCE, or 7 percent of total U.S. emissions, 
but also reduced emissions by 270 MMTCE, or nearly 15 percent of total 
U.S. 1999 GHG emissions. Thus, agriculture and forestry accounted for a 
net reduction of 137 MMTCE, or just over 7 percent of total U.S. 
emissions in 1999.
---------------------------------------------------------------------------
     \10\ U.S. Department of State, U.S. Climate Action Report 2002, 
Washington, DC, May 2002. Report at http://www.epa.gov/globalwarming/
publications/car/index.html
---------------------------------------------------------------------------
    Approximately 91 percent of the ``net sink'' effect of agriculture 
and forestry (or approximately 125 of the 137 MMTCE) was due to forest 
sequestration, including trees, forest soils, and harvested wood. 
Agricultural soils accounted for 8 percent of the 137 MMTCE net sink, 
or 11 MMTCE.\11\ For both agricultural soils and forests, this 
represents the net sink effect under current, ``business as usual'' 
conditions.
---------------------------------------------------------------------------
     \11\Ibid.
---------------------------------------------------------------------------
Agriculture as a source of GHG Emissions
    Agriculture contributes emissions of 3 of the 6 GHG's of concern: 
carbon dioxide, methane, and nitrous oxide. For CO<INF>2</INF>, 
agricultural emissions are primarily from fossil fuel use, soil carbon 
release, and biomass burning. Methane emissions from agriculture are 
primarily from enteric fermentation in ruminant animals, rice 
cultivation, and biomass burning. For nitrous oxides, soils, 
fertilizers, manures and biomass burning contribute to releases from 
agriculture, with the greatest amount coming from the use of 
fertilizers.
    Reductions from any of these sources can help to offset U.S. 
emissions. Scientists and policymakers are working on many of these 
areas.
    For example, wind power on agricultural lands can reduce some of 
our reliance on fossil fuel combustion, as can the production of 
renewable energy sources and biofuels produced from agricultural 
materials (plant materials, animal wastes). Changes in tillage 
practices and the use of cover crops can reduce on-farm fuel use and 
nitrogen fertilizer applications rates. Methane from livestock and 
manures can be reduced through improved diets and changes in manure 
treatment. And soil carbon sequestration can be increased through 
improved management practices such as no-till and other conservation 
practices, the use of shelterbelts, grass waterways, site specific 
management, restoration of wetlands, and improved irrigation 
management, to name a few. Taken individually and together, these 
practices can make significant contributions toward offsetting our 
national emissions.
    The Conservation Technology Information Center (CTIC), a public-
private partnership dedicated to sharing information and data on 
agricultural management systems, estimates that approximately 80 
percent of environmental issues that result from cropland and cropping 
practices can be corrected with the proper management approaches, 
including integrated conservation tillage.\12\
---------------------------------------------------------------------------
     \12\Conservation Technology Information Center 
(WWW.ctic.purdue.edu).
---------------------------------------------------------------------------
Production Agriculture as a Sink
    I would like to focus specifically on agricultural soils, and 
practices that can increase soil carbon sequestration. Changes in 
tillage practices can reduce fossil fuel use; result in net 
sequestration of CO<INF>2</INF> in soils as soil organic carbon, or 
humus (the ``life bread'' of soils); reduce nitrous oxide emissions 
from soils and fertilizers; improve water quality; and increase 
wildlife habitat. Simply put, soil carbon enhances agricultural 
sustainability. Fortunately, soil carbon is a component of soil that 
can be changed via management practices.
    Soil scientists estimate that the potential for U.S. agricultural 
soils to sequester additional carbon ranges from 98-276 MMTCE per year 
(average 187 MMTCE per year) which represents fully 10 percent of U.S. 
annual emissions.\13\ However, this capacity represents the upper 
potential for soils, and would only occur if all cropland soils were 
immediately managed to maximize carbon uptake. If that were to occur, 
the ability of these soils to absorb carbon at these levels would still 
fall over time, since soils have a finite ability to absorb carbon, 
until a 'saturation' level is achieved. Rates of carbon sequestration 
drop as saturation levels are approached. In other words, maximization 
of agricultural soil carbon sequestration could mitigate up to 10 
percent of our national emissions annually, but only for a 10-to 20-
year period. But that timeframe is enough to offset some of our 
emissions as we transition our economy away from the current reliance 
on fossil fuels, and toward a less fossil-carbon intensive energy base. 
Agriculture can be a band-aid, but it won't prevent global climate 
change.
---------------------------------------------------------------------------
     \13\Lal, R., R.F. Follett, J.M. Kimble, 2003, pre-publication 
data.
---------------------------------------------------------------------------
Soil Carbon: Multiple benefits to farmers and society
    Agricultural and soil scientists have measured the carbon content 
of soils for more than a century; USDA maintains test plots where 
they've collected and monitored soil carbon content for well over 100 
years. Carbon monitoring in soils did not begin because of a potential 
link to global warming, however. The carbon content of soils is 
indicative of the ``health'' of soils. Increased soil carbon content or 
soil carbon sequestration leads to improved soil ``tilth'' (structure), 
thus reducing erosion of soils from wind and water; improved soil 
fertility and crop productivity; reduced runoff of agricultural 
nutrients and chemicals; and improved air quality.
    Soil carbon content is increased via the addition of organic matter 
to soils also known as ``humus.'' Plants, via photosynthesis, remove 
CO<INF>2</INF> from the air for the production of plant biomass, which 
over time is sequestered in the soil as soil carbon, or humus. The 
carbon remains sequestered and stable in the soil as long as it is not 
disturbed or tilled. Tillage or the turning over of soils leads to 
exposure of the humus, and the resulting release of carbon. Thus, 
traditional tillage practices that ``inverted'' soils have led to the 
release of carbon. In this way, conversion of lands for agricultural 
uses in this country historically has led to emissions of carbon 
dioxide. Traditional tillage practices continue to add to U.S. carbon 
releases, albeit at a lower rate, since most agricultural soils that 
are traditionally tilled have reached a low-point of carbon emissions, 
a near-equilibrium.
    Scientists have shown that the adoption of conservation or no-till 
by farmers can reverse the historic and continued carbon loss thus 
helping to reduce U.S. emissions, while contributing to agricultural 
sustainability and ancillary environmental benefits.\14\
---------------------------------------------------------------------------
     \14\Lal, R., J.M. Kimble, R.F. Follett, and C.V. Cole, ``The 
Potential of U.S. Cropland to Sequester Carbon and Mitigate the 
Greenhouse Effect,'' Sleeping Bear Press, Inc., 1998.
---------------------------------------------------------------------------
Farmer's Experiences with No-Till: Practice Confirms Research
    Some compelling stories from farmers who have converted to 
conservation tillage and no-till farming perhaps best provide a picture 
of the many benefits to society and farmers of this management 
practice. At a February, 2003 congressional briefing on global warming 
and soil carbon sequestration,\15\ Elmon Richards of Richards Farms in 
Circleville, Ohio shared his experiences with Senate and House staff.
---------------------------------------------------------------------------
     \15\February 10-11, 2003 briefing on Agriculture and Climate 
Change, sponsored by the National Environmental Trust, the National 
Academy of Sciences, the Conservation Technology Information Center, 
the American Society of Agronomy, the Crop Science Society of America, 
the Soil Science Society of America, and the National Farmers Union; 
and hosted by Senators Sam Brownback and Tom Harkin, and Congressmen 
Wayne Gilchrest and John Olver.
---------------------------------------------------------------------------
    Beginning in the 1970's, Richards Farms began planting their 3,500 
acres of corn and soybeans without tilling the soil. By converting to 
``no-till,'' they found that the time it took to plant their fields was 
significantly reduced, as were fuel use, labor and equipment costs. 
Through experimentation they additionally found that by planting crop 
rows closer together, the crop canopy developed earlier and reduced the 
use of herbicides for weed control. Despite initial reduction in 
yields, the Richards' found that after 5 years of complete no-till on 
their croplands, yields increased back to pre-conversion rates or even 
higher, due mainly to increased soil quality and improved water 
infiltration and retention. Additionally, the carbon content of the 
soils started to increase, leading to improved aggregate stability and 
higher earth worm populations in other words, the soil began to look 
more like natural soils, teaming with biological life.
    Among the benefits of no-till farming documented by the Richard's 
family are:

    <bullet>  the need for fewer, smaller tractors;
    <bullet>  the need for fewer tractor passes over fields;
    <bullet>  reduced fuel use;
    <bullet>  reduced labor costs; and
    <bullet>  more free time.

    More specifically, the tractors the Richards' used for conventional 
tillage consumed an average of 3-4 gallons of fuel per acre for 
chiseling, disking, field cultivating, planting and spraying. The 
smaller no-till tractors consume an average of 0.3 to 0.4 gallons of 
fuel per acre for planting and spraying or one-tenth the fuel use per 
acre.
    If we were to apply the Richards' figures on a national scale, we 
can begin to appreciate the potential impacts of just one aspect of 
this agricultural management change. Cropland nationwide accounts for 
420 million acres, of which about 240 million are used for the major 
grain crops. Traditional tillage methods on these 240 million acres 
would use approximately 840 million gallons of fuel to till and plant. 
Using the Richards' data, fuel use would drop to 96 million gallons 
nationwide for no-till planting a savings of 744 million gallons of 
fuel annually. Since each gallon of fuel burned releases 6.1 pounds of 
carbon to the atmosphere, a reduction of 744 million gallons would 
reduce carbon emissions from fuel savings alone by approximately 2.1 
MMTCE per year\16\ which does not even account for the carbon 
sequestered in the soil!
---------------------------------------------------------------------------
     \16\Calculation: [(774 million gal. fuel X 6.1 tons carbon per 
gal. fuel)/2000 lbs/ton) x 0.907 U.S. tons to metric tons = MMTCE].
---------------------------------------------------------------------------
    Gordon Gallup of Idaho, who is currently President of the Idaho 
Grain Grower's Association, offers similar evidence of the benefits of 
no-till. Gordon, his wife and sons currently farm about 3,000 acres in 
a wheat-barley rotation on the Snake River plateau in Southeast Idaho. 
The Gallup's switched to no-till in 1985, and documented the following 
results:

    <bullet>  Tractor hours reduced from 1,400 to 120 per year;
    <bullet>  Water adsorption tests show the soils adsorb at a rate of 
3.25 inches per hour of rainfall, compared to the neighbor's 
conventionally tilled soils, which adsorb at 0.6 inches per hour;
    <bullet>  ``Phenomenal soil structure,'' evidenced by rarely having 
to clean sediment basins (which collect eroded soil sediments) since 
converting to no-till;
    <bullet>  Higher yields (higher profit) during drought years, 
compared to neighbors who conventionally till;
    <bullet>  No significant difference in crop diseases between the 
Gallups' fields and neighboring, conventionally tilled fields; and
    <bullet>  Carbon content of soils has more than doubled.

    Terry Davis of Roseville, Illinois also shared his experiences with 
congressional staff at the February briefing. Among the benefits he 
emphasized, Terry documented the effect of no-till on water 
infiltration, run-off, and soil erosion. He found that carbon 
sequestration from no-till:

    <bullet>  Significantly improved water infiltration and the water 
holding capacity of his soils, and virtually eliminated run-off and 
soil loss (compared to neighboring fields experiencing same weather 
impacts);
    <bullet>  Led to an increase in the organic content of his soils 
from 2.1 percent in 1980 to 3.4 percent in 1995 an increase in soil 
carbon content of nearly two-thirds; and
    <bullet>  Allowed him to cut nitrogen fertilizer applications by 50 
percent, which translates into less nitrous oxide emissions and less 
leaching of nitrates into groundwater (which would ultimately end up in 
the Gulf of Mexico).

    Finally, the following data are from farmers in the Colonial Soil 
and Water Conservation District in nearby Virginia. Conversion to no-
till planting:

    <bullet>  Reduced run-off by 75 percent;
    <bullet>  Reduced sediment loss by 98 percent;
    <bullet>  Reduced nitrogen fertilizer losses in run-off by 95 
percent;
    <bullet>  Reduced phosphorus run-off by 92 percent; and
    <bullet>  During Hurricane Floyd in 1999 (a 500+ year storm event), 
the soils held up incredibly well, showing no evidence of concentrated 
flows, a lack of down-stream bank erosion, of sediment deposition, and 
affected vegetation.

Barriers to Adoption of Conservation Tillage
    The percentage of total planted acres in the U.S. under 
conservation tillage rose from 25 percent in 1989 to nearly 37 percent 
in 2002.\17\ No-till increased from 5 to 20 percent in that same 
period. While not all crops and soils are suited to no-till, policies 
to promote conservation tillage could ensure greater adoption rates.
---------------------------------------------------------------------------
     \17\Conservation Technology Information Center, Crop residue 
management data. (WWW.ctic.purdue.edu).
---------------------------------------------------------------------------
    The Richards', the Gallups', Terry Davis and other agricultural 
producers have attested that landowners are reticent to change from 
conventional tillage to no-till for a variety of reasons, including: 
tradition and culture; the prohibitive costs of purchasing or renting 
new equipment; and the need for technical assistance.
    There is a 2-5 year 'risk period' when converting from traditional 
to conservation tillage, where management practices are unfamiliar, and 
soils need to become ``reestablished'' in the absence of tillage. 
Technical assistance is especially important during this period. 
However, some farmers are unable to weather the short-term drop in 
yields during the 'risk period' even though yields tend to rebound and 
in many cases are higher under no-till, once the soil and the farmer 
adapt to this management change. Financial incentives may help.
    Finally, it is important to ensure that policies to promote 
practices that optimize carbon sequestration do not have unintended 
(negative) environmental impacts. Assessments of the impacts on other 
GHG and on wildlife should be conducted prior to enactment.
Measurement, Monitoring, and Verification of Soil Carbon Content
    Soil carbon content and changes in content can be accurately 
measured and monitored, and have been for many years. Farmers routinely 
collect soil samples to determine fertilizer application needs, and 
soil carbon is one of the parameters measured. Over two million such 
samples are collected every year, and these samples document changes in 
carbon over time. Specific sampling performed at experimental plots 
also shows changes in carbon content over time.
    Natural variability of soils and carbon content of soils exists, 
even within the same field, making it difficult to accurately assess 
soil carbon content over large areas without a large number of soil 
samples. However, recent research has shown that soil scientists can 
apply their knowledge of landforms (topography) to selectively and 
precisely measure carbon within fields such that the aggregate carbon 
content of the soils can be reported with less than 10 percent 
variability.\18\ Such data can then be extended to large areas with the 
use of computer modeling, soil maps, and other resource information.
---------------------------------------------------------------------------
     \18\ Nishantha, F., G. Watson, C. Rice, J. Kimble, and M. Ranson, 
``Establishment of Benchmarks for the Measurement and Monitoring of 
Soil Carbon Sequestration,'' pre-publication data.
---------------------------------------------------------------------------
    With additional research, rates of change in soil carbon content 
can be calculated and predicted for various management practices, and 
remote sensing and other methods can be used to confirm and calibrate 
carbon data. Models such as CENTURY are already being used to show 
changes in soil carbon content over time in areas as large as the 
continental U.S.\19\ Continued work can enhance the accuracy of the 
data at smaller spatial scales, to ensure accuracy at the field level 
for individual farmers.
---------------------------------------------------------------------------
     \19\Kimble, J.M., R. Lal, and R.F. Follett, eds, ``Agricultural 
Practices and Policies for Carbon Sequestration in Soil,'' CRC Press 
LLC, 2002.
---------------------------------------------------------------------------
Carbon Markets
    Carbon markets are forming and operating in this country. The 
concept of emissions trading can provide financial opportunities to 
farmers who sequester additional carbon (i.e., above ``business as 
usual'') on their lands. Agriculture offers the prospect of 
sequestering carbon in a low-cost, societally beneficial way for the 
emerging carbon market. If carbon tons sequestered on agricultural 
lands are to be traded or sold by farmers, it is important that such 
issues as baselines, additionality, leakage and permanence be 
addressed, and that transparent accounting protocols be developed.

Conclusions
    Credible policies to reduce net U.S. GHG emissions are needed to 
prevent the potential economic, social, and environmental consequences 
of unmitigated climate change. The agricultural sector is particularly 
vulnerable to global climate change and severe weather events, but with 
the right mix of policies and incentives to enhance its sink effect, 
agriculture can also help to mitigate the greenhouse effect by reducing 
U.S. GHG emissions. The enhanced sink effect of agriculture can be a 
``win-win'' for the sector, for farmers, for society, and the 
environment, but it is not a panacea for greater action. Rather, it can 
be a useful and cost-effective bridge as we transition to a less fossil 
carbon intensive future.
    I would be happy to answer any questions you have about any portion 
of my testimony.
    Thank you.

                               __________
Statement of Cynthia Rosenzweig, Goddard Institute for Space Studies at 
                          Columbia University

    Agriculture and climate are mutually dependent. Their interactions 
involve temperature effects, water supply and demand, and fluxes of 
carbon through the processes of photosynthesis and respiration. Climate 
also affects the crop pests and predators. Climate is important not 
only in terms of average conditions, but also in regard to the 
frequency and intensity of extreme events, such as floods, droughts, 
and heat spells.
    Agricultural soils can be both a contributor to and a recipient of 
the effects of a changing climate. In the past, land management has 
generally resulted in considerable depletion of soil organic matter and 
the release of carbon dioxide. Now, there is the potential to restore 
soil organic carbon through improved management techniques, enhancing 
soil structure and fertility and helping to counter climate change. An 
important caveat is that the capacity for agricultural soil carbon 
sequestration is constrained by the amount of carbon lost during the 
conversion of natural ecosystems to agriculture, so that its 
effectiveness as a mitigating activity for climate change is not 
unlimited.
    After nearly two decades of research on potential impacts of 
climate change on agriculture (see Rosenzweig and Hillel, 1998), 
attention is now turning to mitigation and adaptation responses. 
Mitigation actions such as carbon sequestration in agricultural soils 
are aimed at reducing the atmospheric concentration of CO<INF>2</INF> 
and other greenhouse gases, thereby countering climatic change. 
Adaptation actions such as changes in crop types and management 
practices are responses that optimize production under changing climate 
conditions. Research on these actions is proceeding on parallel tracks.
    Here, we analyze these response actions and suggest that it is both 
useful and necessary for them to be considered jointly. A review of a 
combination of approaches, including field experiments, regression 
analyses, and modeling studies, leads to the following conclusions 
regarding how a changing climate may influence agriculture and how 
mitigation and adaptation responses may interact:
    1) Agriculture regions will experience change over time. Effects on 
agricultural production systems will be heterogeneous across the Nation 
and the world. Some regions will experience increases in production and 
some declines, due to the presence of minimum and maximum thresholds 
for crop growth. Adaptations, such as adjustments in planting dates, 
crop types, and irrigation regimes will likely be required. Geographic 
shifts in crop growing areas are likely to occur, with associated 
changes in production systems. Some production systems will likely 
expand while others contract. Although climate-influenced changes to 
agriculture are likely in the coming decades, the magnitudes and rates 
of these changes are uncertain at the regional scale, given the range 
of projected temperature and precipitation changes from global climate 
models and the unknown degree of manifestation of direct physiological 
effects of increasing CO<INF>2</INF> on crops growing in farmers' 
fields.
    2) Agricultural production in developing countries is more 
vulnerable. Despite general uncertainties, studies have consistently 
shown that overall production in the mid-and high latitudes is likely 
to benefit in the near term (approximately to mid-century), while 
production systems in the low-latitudes are likely to decline. This 
finding has implications for world food security, since most developing 
countries are located in lower-latitude regions. The vulnerability of 
developing countries is related to the growth of crops under current 
climate conditions nearer their optimum temperature limits and the 
potential for greater increases in water stress under a warming 
climate. Developing countries also have fewer resources for development 
of appropriate adaptation measures to counter negative impacts.
    3) Long-term effects on agriculture are negative. If climate change 
effects are not abated, agricultural production in the mid-and high-
latitudes is likely to decline in the long term (approximately by the 
end of 21st century). These results are consistent over a range of 
projected temperature, precipitation, and direct CO<INF>2</INF> effects 
tested. They are due primarily to detrimental effects of heat and water 
stress on crop growth as temperatures rise. Increased climate 
variability under climate change is also likely to negatively affect 
agriculture.
    4) A changing climate will affect mitigation potential. Responses 
to a changing climate will contribute to determining which mitigation 
techniques are successful, and at what levels, over the coming decades. 
Because some carbon-sequestration projects have long durations (?40-50 
years needed to accumulate carbon in agricultural soils in temperate 
regions), farmers may need to consider which sequestration techniques 
have the better chance to succeed under changing climatic regimes. Our 
research shows that the soil carbon sequestration potential of 
agricultural soils is likely to vary under changing climate conditions 
(Fig. 1). If changing climate is not taken into consideration, 
calculations of carbon to be sequestered may be in error.
    5) Mitigation and adaptation responses are synergistic. Conversely, 
mitigation practices can also enhance the adaptation potential of 
agricultural systems. For example, carbon sequestration in agricultural 
soils leads to more stable soil-water dynamics, enhancing the ability 
of crops to withstand drought and floods, both of which may increase 
under changing climate conditions. In addition, many of the strategies 
proposed for reduction of greenhouse gas emissions from agriculture are 
``best practices,'' i.e., they increase input efficiency while limiting 
environmental damage. For instance, use of tree shelterbelts can help 
to minimize soil erosion and stabilize soil carbon; mulches added 
between row crops help to conserve soil water, reduce erosion, and 
sequester carbon (Fig. 2).
    6) Mitigation practices may help to make the U.S. agriculture 
sector ``carbon-neutral.'' A combination of management techniques, from 
reduced or no-tillage, to modified irrigation and fertilization 
application, has the potential to sequester ?50 million tons of carbon 
yearly, approximately matching yearly greenhouse gas emissions from the 
U.S. agricultural sector, estimated at ?50 million tons carbon (Fig. 
3). Recall, however, the caveat that the capacity for agricultural soil 
carbon sequestration is constrained by the amount of carbon previously 
lost during conversion to agriculture, so that its effectiveness as a 
mitigating activity for climate change is not unlimited.
    In conclusion, our research suggests that planning and 
implementation of mitigation and adaptation measures in response to the 
global climate change issue should be coordinated and proceed hand-in-
hand. Investments in programs and research will be needed to assure 
effectiveness in both adaptation and mitigation activities for U.S. 
agriculture.
    Key References
    CAST (Council for Agricultural Science and Technology), 1992. 
Preparing U.S. Agriculture for Global Climate Change. Task Force Report 
No. 119, Ames, IA.
    Fischer, G., Shah, M., van Velthuizen, H., and Nachtergaele, F.O., 
2002. Global Agro-ecological Assessment for Agriculture in the 21st 
Century. International Institute for Applied Systems Analysis and 
United Nations, Special Report 118, Laxenburg, Austria.
    Rosenzweig, Cynthia and Daniel Hillel. 1998. Climate Change and The 
Global Harvest: Potential Effects of the Greenhouse Effect on 
Agriculture. Oxford University Press. New York. 324 pp.
    Rosenzweig, C. and D. Hillel. 2000. Soils and global climate 
change: Challenges and opportunities. Soil Science 165(1):47-56.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
 Statement of David J. Frederickson, President, National Farmers Union

    Chairman Voinovich, Ranking Member Carper, and Members of the 
Subcommittee, I am grateful to have the opportunity to submit a 
statement on behalf of the National Farmers Union 300,000 independent, 
diversified, owner-operated family farms and ranches from 27 States 
across the Nation. We commend your efforts today to discuss the complex 
issues surrounding agriculture production, carbon sequestration and 
climate change.
    What we do know is that farmland, rangeland, and forests will play 
an important role in meeting the challenge of climate change through 
carbon sequestration and renewable bioenergy. Farmers Union members 
historically have been very interested in, and our stated policy has 
specifically called for, increased funding for carbon sequestration and 
bioenergy research, development, and deployment.
    We encourage you to significantly expand efforts to conduct a 
comprehensive scientific inventory of carbon stored in U.S. soils and 
to develop methods to predict how soil carbon levels would be affected 
by different practices and policies. For example, over the past few 
years the USDA Natural Resources Conservation Service has invested over 
$3 million in projects to demonstrate and test various means of 
reducing greenhouse (methane) gas emissions in agriculture, such as 
compost based waste-handling facilities, rotational grazing systems, 
and improved feed and forage systems. We suggest that this effort could 
be expanded and made more comprehensive.
    Our farmers and ranchers also see opportunities for increased 
income and increased environmental benefits in projects that will 
expand efforts aimed at broadening the use of biomass to produce power, 
fuels, and chemicals. In the late 1990's we saw funding for this 
specific research at a level of $251 million; $105 million for USDA and 
$146 million for the Department of Energy. We encourage you to keep a 
close eye on the level of basic research funding that will provide the 
necessary data and information that will hopefully make carbon 
sequestration and biomass energy and fuels programs a reality for 
farmers and ranchers.
    Our members are agricultural producers, both row croppers and 
ranchers, and they participate in all of USDA agricultural, rangeland, 
grassland and forestry conservation programs, in one way or another. 
Our members also hope to participate in climate change studies and 
pilot projects, especially if these studies and projects benefit the 
future of America's family sized farms and ranchers.
    Our members are anxious to learn from experiences with farming 
methods that promote soil carbon sequestration and improve soil quality 
and agricultural sustainability, as these practices can identify 
additional benefits beyond carbon sequestration. We have as well 
supported greater emphasis on improved farm management techniques, 
because we believe that teaching farmers to be the best possible 
stewards of their resources is a better long-term approach to 
sustainability than simple land retirement.
    It is said that the feed-grain crops and soils most prevalent in 
the areas farmed by our membership are among the highest in potential 
carbon sequestration, especially in our row crop farming States. We 
will be glad to see the results of a National Soil Carbon Inventory 
that might verify this claim, so that our farmers and ranchers can 
better understand and realize the potential benefits they are producing 
for climate change efforts, especially now that it is grasped that they 
might be considered active participants in a global climate change 
carbon sequestration program. Our farmers and ranchers want to 
contribute to and participate in programs that produce potential 
environmental and biomass energy benefits for our country.
    Our membership is also very interested in any studies that will 
help us better understand the potential future consequences of global 
climate change as it affects the various farming regions of the United 
States. We have seen that climate changes brought about by the El Nino 
and La Nina events in the past few years have affected the U.S. farming 
regions in different ways. We hope to better understand these phenomena 
so that out family farmers and ranchers can plan for the future, and so 
that policymakers can make voluntary climate change and agricultural 
policy more effective for our producers.
    However, if there are costs associated with climate change and 
carbon sequestration policy approaches that result in an undue burden 
borne by the family farm and ranch, we will ask that Congress actively 
seek an appropriate mechanism that will provide incentives for the 
cash-strapped family owned farm and ranch to participate fully in these 
initiatives.
    We as well look forward to the further development of legislative 
initiatives that have already been offered (that we are aware of) in 
this Congress such as Senator Carper's Clean Air Planning Act of 2003 
(S. 843); Senator Lieberman's Climate Stewardship Act of 2003 (S. 139); 
and Senator Jeffords' Clean Power Act of 2003 (S. 366). We think the 
voluntary programs that have been described in these types of 
legislative vehicles could be valuable in pushing forward initiatives 
that could create useful opportunities for farmers and ranchers.
    Thank you for the chance to offer our comments today and we look 
forward to working with you and your staff's on these important issues.

                               __________
Integrating Conservation Principles into the Development of Accounting 
  Rules and Guidelines for Terrestrial Carbon Sequestration: A White 
   Paper of the International Association of Fish & Wildlife Agencies

Introduction
    This paper is intended to serve as a guide to the International 
Association of Fish and Wildlife Agencies (IAFWA) member agencies, as 
well as the conservation community in general, in developing and 
articulating positions relative to pending and future policies and 
legislation pertaining to carbon sequestration. Specifically, this 
paper will deal with the issue of accounting rules and guidelines that 
are to be developed for terrestrial carbon sequestration, and how 
conservation principles can and should be integrated into those rules 
and guidelines. We will offer the view that carbon sequestration is, in 
essence, a conservation issue, with tremendous potential to not only 
offset the emissions of greenhouse gases through the storage of carbon, 
but also to restore the ecological functions of terrestrial ecosystems 
and their capacity to store carbon.
    Much in the same way that Farm Bill conservation programs have had 
a tremendous impact on the Nation s wildlife and fish habitats since 
1986, carbon sequestration programs are likely to be as influential, if 
not more so, on the landscapes of tomorrow. Therefore, the conservation 
community must devote the same level of attention to the development of 
these new programs as we have to the Farm Bill conservation programs 
that we are already familiar with. Considering that land in the United 
States is a finite resource, which is being subjected to increasing 
pressure to provide a variety of societal needs, it is essential that 
carbon sequestration initiatives accomplish as many additional 
environmental purposes as possible. It will be a poor bargain for 
society if efforts to offset greenhouse gases through carbon 
sequestration result in a diminishing of other natural resources for 
which society would have to pay separately and additionally to correct.

Background
    Carbon sequestration can be defined as the capture and secure 
storage of carbon that would otherwise be emitted to or remain in the 
atmosphere. As the Department of Energy s third approach (in addition 
to increased fuel efficiency, and alternative technologies) in managing 
greenhouse gas emissions in the United States, carbon sequestration is 
believed to have immediate potential to reduce greenhouse gases in ways 
and at a cost that is both economically feasible and environmentally 
acceptable. The Department of Energy in its ``Carbon Sequestration 
Technology Roadmap'' has identified two goals for carbon sequestration, 
one of which is to demonstrate environmental acceptability. However, 
some in the environmental community have expressed ideological 
resistance to carbon sequestration as a greenhouse gas management tool, 
primarily due to its being seen as solely an emissions-offset issue, 
and a way around other strategies to reduce greenhouse gas emissions, 
such as increased efficiency of automobiles, or the use of alternative 
technologies to produce energy.
    In addition to the release of atmospheric carbon through the 
emissions of fossil fuels, another major cause of the loss of stored 
carbon, as much as 50 percent over the last 50-70 years, has been the 
wide-scale alterations in the landscape through de-forestation and 
conversion to agriculture, urbanization, and other activities. 
According to USDA (2002), ``The dominant drivers in terrestrial carbon 
emissions have been the conversion of forest and grassland to crop and 
pastureland, and the concomitant depletion of soil carbon from 
conventional agricultural management practices.'' This has resulted in 
increased carbon emissions to the atmosphere and reduced capacity of 
the terrestrial ecosystem to capture and store atmospheric carbon.
    On February 14, 2002, President Bush announced his Administration s 
Global Climate Change Initiative, which is aimed at reducing the growth 
of GHG emissions in the U.S. while sustaining economic growth. The 
President established a target of reducing the greenhouse gas intensity 
of the U.S. Economy (a measure of the ratio of GHG emissions to Gross 
Domestic Product) by 18 percent over the next 10 years. As part of the 
Global Climate Change Initiative, a range of new and expanded domestic 
energy policies will be implemented, including carbon sequestration. To 
accomplish this aspect of the initiative, President Bush ``directed the 
Secretary of Agriculture to provide recommendations on further, 
targeted incentives for forest and agricultural sequestration of 
greenhouse gases. The President further directed the Secretary of 
Agriculture, in consultation with the Environmental Protection Agency 
and Department of Energy, to develop accounting rules and guidelines 
for crediting sequestration projects, taking into account emerging 
domestic and international approaches.''
    Through terrestrial carbon sequestration, the Department of Energy 
has established ``regional improvements in ecosystem stability, 
biodiversity and water quality'' as expected outcomes of the ancillary 
or collateral benefits of terrestrial carbon sequestration. In other 
words, conservation benefits are seen only as a potential byproduct of 
terrestrial carbon sequestration. However, there is also potential and 
the need to create a paradigm whereby terrestrial carbon sequestration 
is seen as an ecosystem restoration tool, providing both carbon storage 
benefits and ecosystem restoration benefits. Without this new paradigm 
becoming an integral component in the development of carbon storage 
programs, the potential for programs with harmful impacts to natural 
ecosystems and their health will increase.

Conservation Issues
    As the development of accounting rules and guidelines moves 
forward, there are a number of issues that the conservation community 
should be prepared to address. The resolution of these issues will 
greatly influence whether carbon sequestration will be viewed as an 
environmental asset or an environmental liability. To strengthen carbon 
sequestration s potential as an environmental asset, public agencies 
with fish and wildlife population management responsibilities must be 
brought into the decisionmaking process.
    <bullet>    Terrestrial carbon sequestration, as the third approach 
in managing greenhouse gas emissions, will become a conservation 
catalyst, much the same way that farm policies and other major land use 
policies have been catalysts for large-scale habitat change in the 
past. This force for change has both positive and/or negative potential 
impacts on ecosystems and their habitats.
    <bullet>  Terrestrial carbon sequestration will introduce an 
economic variable into land use and land management decisions that will 
likely be unprecedented in scope, and unknown in effect. In essence, 
carbon sequestration programs will affix an economic value onto an 
ecological function, a value which heretofore has never been part of 
the equation in making land use or land management decisions.
    <bullet>  Without appropriate guidelines and restrictions and/or 
incentives, economic forces of carbon sequestration could negatively 
influence the ability to restore native habitats and ecosystem 
integrity. Non-native species may be shown to possess greater carbon 
storage capability than native species, thus creating an economic 
market force that will provide cheaper carbon storage methods, but 
yield no ecological benefits, or perhaps even cause further degradation 
of ecosystems.
    <bullet>  Within the environmental community, a number of 
organizations harbor an ideological resistance to carbon sequestration 
programs, seeing these programs as ways to avoid other alternatives for 
reducing greenhouse gases. Without incorporating conservation 
principles into the development of guidelines and accounting rules, 
ideological resistance to carbon sequestration programs is likely to 
become stronger and broader among many mainstream conservation 
organizations, especially if carbon programs result in adverse impacts 
to floral and faunal communities.

The Farm Bill and Carbon Sequestration
    The President s Global Climate Change Initiative has identified the 
Farm Bill and its conservation provisions as a primary vehicle for 
accomplishing significant carbon sequestration benefits in the next 10 
years. In his fiscal year 2003 budget, President Bush requested a $1 
billion increase in Farm Bill funding ``as part of a 10-year (2002-20 
11) commitment to implement and improve the conservation title of the 
Farm Bill, which will significantly enhance the natural storage of 
carbon.'' Activities and program objectives pertaining to carbon 
sequestration are identified in three titles of the 2002 Farm Bill:
    <bullet>  Title 2, Conservation. Sec. 1240H. Conservation 
Innovation Grants ``implement projects, such as''. . . . ``(B) 
innovative conservation practices, including the storing of carbon in 
the soil''
    <bullet>  Title 8, Forestry. Sec. 4. Forest Land Enhancement 
Program Program Objective #4 is ``Increasing and enhancing carbon 
sequestration opportunities.''
    <bullet>  Title 9, Energy. Sec. 9009. Cooperative Research and 
Extension Projects Purposes:
      <bullet>    Developing data addressing carbon losses and gains in 
soils and plants (including trees) and the exchange of methane and 
nitrous oxide from agriculture;
      <bullet>   Understanding how agricultural and forestry practices 
affect the sequestration of carbon in soils and plants (including 
trees);
      <bullet>   Evaluating the linkage between Federal conservation 
programs and carbon sequestration;
      <bullet>   Developing methods, including remote sensing, to 
measure the exchange of carbon and other greenhouse gases sequestered, 
and to evaluate leakage, performance, and permanence issues.
    It is clear that the Farm Bill will be of emerging importance as a 
vehicle for delivering a significant portion of the Nation s carbon 
sequestration efforts. Coupled with the Secretary of Agriculture s 
responsibilities ``to provide recommendations on further, targeted 
incentives for forest and agricultural sequestration of greenhouse 
gases'' and ``to develop accounting rules and guidelines for crediting 
sequestration projects'', conservation organizations must be prepared 
to become engaged in this process to ensure that sound conservation 
policies are considered and incorporated into carbon sequestration 
program development.

Operating Principles to Guide the Development of Accounting Rules and 
        Guidelines
    The following principles are offered as guiding principles for 
IAFWA and its member organizations in developing positions and 
recommendations relative to carbon sequestration accounting rules and 
guidelines.
    <bullet>  Adopt a Conservation-based Vision of Terrestrial Carbon 
Sequestration
      <bullet>   The vision should recognize that carbon sequestration 
is a conservation issue in a fundamental sense, and not just in an 
ancillary or collateral sense.
      <bullet>   The vision should be eco-regionally based (temperate 
forests, forested wetlands, prairies, grasslands, etc.), recognizing 
that different ecosystems have inherently different carbon storage 
mechanisms and capabilities, and carbon sequestration activities should 
be tailored to those capabilities while recognizing the priority fish 
and wildlife habitat needs unique to each eco-region.
    <bullet>  Apply the Principle of Concurrent Restoration to 
determinations.
      <bullet>   The Principle of Concurrent Restoration seeks to 
restore the natural ecological capability of the terrestrial ecosystem 
to store carbon by promoting policies and guidelines that will restore 
that ecosystem in an environmentally sustainable way. Carbon 
sequestration activities should not diminish other natural resources, 
including fish and wildlife.
     Principle of Concurrent Restoration: Whereas the process of 
terrestrial carbon sequestration involves the restoration of a degraded 
ecological function, the restoration of that function should not come 
at the expense of other ecological functions and values and should in 
fact produce concurrent restoration benefits.
    <bullet>  Identify fish and wildlife as public resources that are 
managed by States for the benefit of present and future generations.
      <bullet>   These public resources make significant contributions 
to the Nation s economy through fish and wildlife-related recreation, 
with 82 million participants spending over $100 billion in 2001. 
Because terrestrial carbon sequestration has the potential to alter the 
current landscape and habitats that fish and wildlife depend on, States 
occupy an important and unique role as a stakeholder in the development 
of these programs. Rules and guidelines that assign value to land use 
and that may result in large-scale conversions of habitat require 
consultation with State fish and wildlife agencies.

USDA Accounting Rules and Guidelines
    As the USDA moves through its process of developing accounting 
rules and guidelines, as directed by the President, there are a number 
of issues and questions concerning their development that should be 
addressed relative to the Principle of Concurrent Restoration for 
terrestrial carbon sequestration. Therefore, we offer the following 
conservation principles that should be considered in evaluating and 
developing recommendations relative to Accounting Rules and Guidelines:
    <bullet>  Qualifying activities for terrestrial carbon 
sequestration should provide benefits to both carbon sequestration and 
ecological restoration. Under Section 1605(b) of the Energy Policy Act 
of 1992, the Department of Energy developed a Voluntary Reporting of 
Greenhouse Gases Program, including voluntary reporting of carbon 
sequestration projects. Within this program, a number of forestry and 
agricultural activities are listed with potential carbon sequestration 
benefits. Some activities, such as afforestation of agricultural lands, 
have the potential to provide ecological benefits if conducted with an 
ecological restoration objective. Likewise, such activities could also 
adversely impact wildlife habitat if, for instance, exotic species were 
used or a monoculture plantation forest were established. The 
Department of Energy also recognizes that prairie and grassland 
ecosystems hold great promise to provide carbon storage benefits, 
though less work has been conducted in these systems compared to 
forested systems. Therefore, carbon sequestration programs designed for 
prairie and grassland ecosystems should be carefully constructed to 
maintain and/or enhance the ecological integrity of the system while 
providing carbon storage benefits.
      <bullet>   Qualifying activities should be eco-regionally based, 
to ensure compatibility of carbon sequestration practice(s) with the 
climate and soil characteristics of the area. Incentives should be 
established to promote and encourage carbon sequestration projects that 
include an ecological restoration component.
      <bullet>   Qualifying activities should require or provide 
incentives to use native species rather than exotic or invasive species 
in carbon sequestration projects.
      <bullet>   Qualifying activities should require or provide 
incentives for carbon sequestration projects to promote diverse 
landscapes utilizing endemic species as opposed to exotic or 
monoculture systems (except in cases where restoring natural forests 
favor monoculture systems, e.g., longleaf pine ecosystems). These 
incentives should be developed for both forested and prairie 
ecosystems.
      <bullet>   Qualifying activities should encourage and promote the 
development of carbon sequestration projects utilizing natural 
vegetation systems, as opposed to ``enhanced'' vegetation.
      <bullet>   Qualifying activities for primary and secondary 
existing forests should include provisions that allow and encourage 
thinning and other forest stand improvement practices, when needed, to 
reduce excessive stocking levels. This will result in benefits to many 
wildlife species, with the added benefit of increased timber quality at 
the end of the rotation.
      <bullet>   Careful consideration must be given to the integration 
of carbon sequestration benefits and credits into existing Farm Bill 
conservation programs such as the Conservation Reserve Program and the 
Wetlands Reserve Program. Likewise, new Farm Bill conservation 
programs, such as the Conservation Security Program and Grassland 
Reserve Program have the potential to significantly influence 
conservation on private lands, and provide further carbon sequestration 
benefits. If carbon sequestration benefits are included as part of the 
ranking process for these programs, they should not detract from other 
intended conservation benefits to wildlife habitat, soil conservation, 
and water quality, and in fact should be structured to enhance these 
benefits. If carbon sequestration credits are to be allowed within 
these publicly financed programs, then practices should be required to 
provide concurrent environmental benefits.
    <bullet>  Addressing the issues of additionality, leakage, 
permanence, and verification
      <bullet>   To ensure that carbon sequestration programs result in 
a net gain of stored carbon within an environmentally sustainable 
context, the issues of additionality (carbon storage benefits accrued 
in addition to what would occur in the absence of a carbon project), 
leakage (migration of carbon emitting activities such as logging or 
land clearing to other areas outside the project area, effectively 
offsetting carbon sequestration benefits), permanence (duration of 
carbon storage methods), and verification (methods for measuring and 
verifying carbon sequestration benefits) should be addressed with 
careful consideration of their ecological impacts.
    <bullet>  Addressing the issue of scale
      <bullet>   Scale refers to the land area that will be used to 
determine baseline carbon storage capacity (no carbon offset programs 
in place), and also to evaluate additionality and leakage as carbon 
programs are established. The scale for carbon sequestration programs 
should be of sufficient size to enable effective monitoring of 
additionality and leakage. At a minimum, carbon programs should be 
accounted for and reported at the county level. This would allow for 
State and region-wide summaries with minimal effort. However, 
consideration for an ecological scale is also warranted, which will 
require more sophisticated measurements and analyses. Therefore, carbon 
projects should be geospatially referenced, to allow for GIS analyses 
utilizing remote sensing data and other technologies.
    <bullet>  Development of demonstration and research projects
      <bullet>   In the energy title (Title IX) of the 2002 Farm Bill, 
emphasis is placed on developing demonstration and cooperative research 
projects to further the understanding of carbon sequestration on the 
carbon cycle, increase the understanding of how agricultural and 
forestry practices affect the sequestration of carbon in soils and 
plants, develop cost-effective means of measuring and monitoring 
changes in carbon pools in soils and plants, evaluate the linkage 
between Federal conservation programs and carbon sequestration, and to 
establish benchmark standards for future carbon programs. However, none 
of these objectives will lead to an evaluation of environmental 
acceptance of carbon storage methods, or whether concurrent restoration 
benefits will result. Therefore, In addition to these objectives, 
demonstration projects should assess concurrent restoration benefits 
and the environmental acceptability of carbon sequestration methods. 
Demonstration projects should also promote additionality, and not 
result in the conversion of native grasslands to forests or other non-
native systems.
    <bullet>  Monitoring and evaluation should address not only the 
carbon response, but also the ecological response.
      <bullet>   A monitoring and evaluation component for a carbon 
sequestration program should be able to evaluate the following: 1) 
Sequestration estimates and measurement; 2) Baseline development; 3) 
Leakage assessment; 4) Permanence; 5) Ecological benefits, including 
habitat restoration, water quality, flood storage, etc.

                               __________
International Association of Fish and Wildlife Agencies    
                              444 North Capitol Street, NW,
                 Suite 544, Washington, DC 20001, February 28, 2003

Mr. William Hohenstein
Global Change Program Office
United States Department of Agriculture
Room 12-A, J.L. Whitten Building
1400 Independence Ave., NW
Washington, DC 20250-3814
Dear Mr. Hohenstein: The International Association of Fish and Wildlife 
Agencies (Association) appreciates the opportunity provided by the 
United States Department of Agriculture (USDA) to comment on the 
development of revisions to the agriculture and forestry sections of 
the Voluntary Greenhouse Gas Reporting Program and accounting rules and 
guidelines for crediting carbon sequestration projects in agriculture 
and forestry.
    The Association represents all 50 State fish and wildlife agencies 
and their interest in the professional management of the Nation s fish 
and wildlife resources. Along with fish and wildlife agencies from 
Canada and Mexico and many non-governmental conservation organizations 
that are contributing members, the Association develops, supports and 
defends legislation, rules and policies which safeguard and improve the 
well-being of North America s fish and wildlife resources.
    Much in the same way that Farm Bill conservation programs have had 
a tremendous impact on the Nation s wildlife and fish habitats since 
1986, carbon sequestration programs are likely to be as influential, if 
not more so, on the landscapes of tomorrow. Considering that land in 
the United States is a finite resource, which is being subjected to 
increasing pressure to provide a variety of societal needs, it is 
essential that carbon sequestration initiatives accomplish as many 
additional environmental purposes as possible. It will be a poor 
bargain for society if efforts to offset greenhouse gases through 
carbon sequestration result in a diminishing of other natural resources 
for which society would have to pay separately and additionally to 
correct.
    The Association believes that carbon sequestration is, in essence, 
a conservation issue, with tremendous potential to not only offset the 
emissions of greenhouse gases through the storage of carbon, but also 
to restore the ecological functions of terrestrial ecosystems and their 
capacity to store carbon. Rather than viewing terrestrial carbon 
sequestration activities as simply a carbon storage mechanism that may 
have some ancillary or collateral conservation benefits that occur by 
chance, we believe carbon sequestration activities should be viewed as 
an ecosystem restoration tool, with the express purpose of providing 
both carbon storage benefits and ecosystem restoration benefits. Rules 
and guidelines developed for greenhouse gas reporting and sequestration 
accounting should make clear the expectation that qualifying activities 
will provide benefits to both carbon sequestration and ecological 
restoration and protection. The Association offers the following 
operating principles to guide development of accounting rules and 
guidelines by USDA and the Department of Energy (DOE):
    <bullet>  Adopt a conservation-based vision of terrestrial carbon 
sequestration. The vision should recognize that carbon sequestration is 
a conservation issue in a fundamental sense, and not just in an 
ancillary or collateral sense. The vision should be eco-regionally 
based (temperate forests, forested wetlands, prairies, grasslands, 
etc.), recognizing that different ecosystems have inherently different 
carbon storage mechanisms and capabilities, and carbon sequestration 
activities should be tailored to those capabilities.
    <bullet>  Apply the Principle of Concurrent Restoration to 
determinations. The Principle of Concurrent Restoration seeks to 
restore the natural ecological capability of the terrestrial ecosystem 
to store carbon by promoting policies and guidelines that will restore 
that ecosystem in an environmentally sustainable way. Carbon 
sequestration activities should not diminish other natural resources, 
including fish and wildlife.
  Principle of Concurrent Restoration: Whereas the process of 
    terrestrial carbon sequestration involves the restoration of a 
    degraded ecological function, the restoration of that function 
    should not come at the expense of other ecological functions and 
    values and should in fact produce concurrent restoration benefits.
    <bullet>  Fish and wildlife are public resources that are managed 
by States for the benefit of present and future generations. The 
economic benefits generated by the Nation s fish and wildlife resources 
are enormous, with 82 million U.S. residents 16 years old and older 
participating in fish and wildlife associated recreation and spending 
over $100 billion in 2001. Because terrestrial carbon sequestration has 
the potential to alter the current landscape and habitats that fish and 
wildlife depend on, States occupy an important and unique role as a 
stakeholder in the development of these programs. Rules and guidelines 
that assign value to land use and that may result in large-scale 
conversions of habitat require consultation with State fish and 
wildlife agencies.
    Without incorporating these operating principles into the 
development of guidelines and accounting rules, ideological resistance 
to carbon sequestration programs is likely to become stronger and 
broader among many mainstream conservation organizations, especially if 
carbon programs result in adverse impacts to floral and faunal 
communities.
    As the USDA and DOE move through the process of developing 
accounting rules and guidelines, there are a number of issues and 
questions concerning their development that we believe must be 
addressed relative to the Principle of Concurrent Restoration for 
terrestrial carbon sequestration:
    <bullet>  Qualifying activities for terrestrial carbon 
sequestration should provide benefits to both carbon sequestration and 
ecological restoration. Under DOE's Voluntary Reporting of Greenhouse 
Gases Program, a number of forestry and agricultural activities are 
listed with potential carbon sequestration benefits. Some activities, 
such as afforestation of agricultural lands, have the potential to 
provide ecological benefits if conducted with an ecological restoration 
objective. Likewise, such activities could also adversely impact 
wildlife habitat if, for instance, exotic species were used or a 
monoculture plantation forest were established. DOE also recognizes 
that prairie and grassland ecosystems hold great promise to provide 
carbon storage benefits, though less work has been conducted in these 
systems compared to forested systems. Therefore, carbon sequestration 
programs designed for prairie and grassland ecosystems should be 
carefully constructed to maintain and/or enhance the ecological 
integrity of the system while providing carbon storage benefits.
      <bullet>   Qualifying activities should be eco-regionally based, 
to ensure compatibility of carbon sequestration practice(s) with the 
climate and soil characteristics of the area. Incentives should be 
established to promote and encourage carbon sequestration projects that 
include an ecological restoration component.
      <bullet>   Qualifying activities should require or provide 
incentives to use native species rather than exotic or invasive species 
in carbon sequestration projects.
      <bullet>   Qualifying activities should require or provide 
incentives for carbon sequestration projects to promote diverse 
landscapes utilizing endemic species as opposed to exotic or 
monoculture systems (except in cases where restoring natural forests 
favor monoculture systems, e.g., longleaf pine ecosystems). These 
incentives should be developed for both forested and prairie 
ecosystems.
      <bullet>   Qualifying activities should encourage and promote the 
development of carbon sequestration projects utilizing natural 
vegetation systems, as opposed to ``enhanced'' vegetation.
      <bullet>   Qualifying activities for primary and secondary 
existing forests should include provisions that allow and encourage 
thinning and other forest stand improvement practices, when needed, to 
reduce excessive stocking levels. This will result in benefits to many 
wildlife species, with the added benefit of increased timber quality at 
the end of the rotation.
      <bullet>   Careful consideration must be given to the integration 
of carbon sequestration benefits and credits into existing Farm Bill 
conservation programs such as CR? and WRP. Likewise, new Farm Bill 
conservation programs, such as the Conservation Security Program and 
Grassland Reserve Program have the potential to significantly influence 
conservation on private lands, and provide further carbon sequestration 
benefits. If carbon sequestration benefits are included as part of the 
ranking process for these programs, they should not detract from other 
intended conservation benefits to wildlife habitat, soil conservation, 
and water quality, and in fact should be structured to enhance these 
benefits. Carbon sequestration credits should be allowed within these 
publicly financed programs in ways that will provide concurrent 
restoration benefits. All carbon sequestration projects developed with 
government financing should be clearly identified and tracked as such 
to distinguish them from privately financed projects.
    <bullet>  How will demonstration and/or research projects be 
developed? In the energy title (Title IX) of the 2002 Farm Bill, 
emphasis is placed on developing demonstration and cooperative research 
projects to further the understanding of carbon sequestration on the 
carbon cycle, increase the understanding of how agricultural and 
forestry practices affect the sequestration of carbon in soils and 
plants, develop cost-effective means of measuring and monitoring 
changes in carbon pools in soils and plants, evaluate the linkage 
between Federal conservation programs and carbon sequestration, and to 
establish benchmark standards for future carbon programs. However, none 
of these objectives will lead to an evaluation of environmental 
acceptance of carbon storage methods, or whether concurrent restoration 
benefits will result. Therefore, in addition to these objectives, 
demonstration projects should assess concurrent restoration benefits 
and the environmental acceptability of carbon sequestration methods. 
Demonstration projects should also promote additionality, and not 
result in the conversion of native grasslands to forests or other non-
native systems.
    <bullet>  How will additionality, leakage, permanence, and 
verification be addressed? To ensure that carbon sequestration programs 
result in a net gain of stored carbon within an environmentally 
sustainable context, the issues of additionality (carbon storage 
benefits accrued in addition to what would occur in the absence of a 
carbon project), leakage (migration of carbon emitting activities such 
as logging or land clearing to other areas outside the project area, 
effectively offsetting carbon sequestration benefits), permanence 
(duration of carbon storage methods), and verification (methods for 
measuring and verifying carbon sequestration benefits) should be 
addressed with careful consideration of their ecological impacts. The 
concept of independent third party verification of emission reductions 
could also be applied to verification of ecosystem restoration benefits 
by enlisting the State agency with resource management responsibility 
(e.g., the State fish and wildlife agency) to verify project benefits, 
such as whether the project contributes to fish and wildlife resource 
management objectives.
    <bullet>  How should the issue of scale be incorporated? Scale 
refers to the land area that will be used to determine baseline carbon 
storage capacity (no carbon offset programs in place), and also to 
evaluate additionality and leakage as carbon programs are established. 
The scale for carbon sequestration programs should be of sufficient 
size to enable effective monitoring of additionality and leakage. At a 
minimum, carbon programs should be accounted for and reported at the 
county level. This would allow for State and region-wide summaries with 
minimal effort. However, consideration for an ecological scale is also 
warranted, which will require more sophisticated measurements and 
analyses. Therefore, carbon projects should be geospatially referenced, 
to allow for GIS analyses utilizing remote sensing data and other 
technologies.
    <bullet>  T3Monitoring and evaluation should address not only the 
carbon response, but also the ecological response. A monitoring and 
evaluation component for a carbon sequestration program should be able 
to evaluate the following: 1) Sequestration estimates and measurement; 
2) Baseline development; 3) Leakage assessment; 4) Permanence; 5) 
Ecological benefits, including habitat restoration, water quality, 
flood storage, etc.
    The Association commends USDA and DOE for soliciting input from 
stakeholders on revisions to the Voluntary Greenhouse Gas Reporting 
Program and the accounting rules and guidelines for carbon 
sequestration projects through public workshops and the opportunity to 
submit written comments. The Association looks forward to working with 
USDA and DOE as the process moves forward to insure that conservation 
benefits become an integral part of the reporting and accounting rules 
and guidelines.
            Sincerely,
                                          John G. Baughman,
                                          Executive Vice President,
                                            National Farmers Union.

                                 <all>

</pre></body></html>
